<html>
<title> - H.R. 114, THE BIENNIAL BUDGETING AND APPROPRIATIONS ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
    H.R. 114, THE BIENNIAL BUDGETING AND APPROPRIATIONS ACT OF 2011 

=======================================================================

                          LEGISLATIVE HEARING 
                              (RHRG-112-A)

                               before the

                            SUBCOMMITTEE ON
                     LEGISLATIVE AND BUDGET PROCESS

                                 of the

                           COMMITTEE ON RULES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2012

                               __________

             Printed for the use of the Committee on Rules


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-889 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 







































                           COMMITTEE ON RULES

                   DAVID DREIER, California, Chairman
PETE SESSIONS, Texas                 LOUISE McINTOSH SLAUGHTER, 
VIRGINIA FOXX, North Carolina            New York
ROB BISHOP, Utah                     JAMES P. McGOVERN, Massachusetts
ROB WOODALL, Georgia                 ALCEE L. HASTINGS, Florida
RICHARD NUGENT, Florida              JARED POLIS, Colorado
TIM SCOTT, South Carolina
DANIEL WEBSTER, Florida*
                 Hugh Nathanial Halpern, Staff Director
                Miles M. Lackey, Minority Staff Director
                                 ------                                

             Subcommittee on Legislative and Budget Process

                     PETE SESSIONS, Texas, Chairman
VIRGINIA FOXX, North Carolina        ALCEE L. HASTINGS, Florida
ROB WOODALL, Georgia                 JARED POLIS, Colorado
DANIEL WEBSTER, Florida
DAVID DREIER, California
               Towner French, Subcommittee Staff Director
                Lale M. Mamaux, Minority Staff Director
                                 ------                                

          Subcommittee on Rules and Organization of the House

                  RICHARD B. NUGENT, Florida, Chairman
ROB BISHOP, Utah                     JAMES P. McGOVERN, Massachusetts
TIM SCOTT, South Carolina            LOUISE McINTOSH SLAUGHTER, 
DAVID DREIER, California                 New York
             Katharine Troller, Subcommittee Staff Director
                  Keith Stern, Minority Staff Director

----------
* Tom Reed of New York was elected to the Committee on April 5, 2011 
and served until he resigned on June 14, 2011 to serve on the Committee 
on Ways and Means.

































                            C O N T E N T S

                              ----------                              

                            January 24, 2012

                                                                   Page
Opening Statement of the Honorable Pete Sessions, Chairman of the 
  Subcommittee on Legislative and Budget Process of the Committee 
  on Rules.......................................................     1
    Prepared Statement of........................................     4
Opening Statement of the Honorable Jared Polis, a Member of the 
  Committee on Rules.............................................     5
Opening Statement of the Honorable David Dreier, Chairman of the 
  Committee on Rules.............................................     6
Statements of Members:
    Young, Honorable C.W. Bill, a Representative in Congress from 
      the State of Florida.......................................    13
    Price, Honorable David E., a Representative in Congress from 
      the State of North Carolina................................    15
        Prepared statement of....................................    18
    Whitfield, Honorable Ed, a Representative in Congress from 
      the State of Kentucky......................................    20
        Prepared statement of....................................    22
    Ribble, Honorable Reid J., a Representative in Congress from 
      the State of Wisconsin.....................................    31
        Prepared statement of....................................    34
    Stivers, Honorable Steve, a Representative in Congress from 
      the State of Ohio..........................................    36
        Prepared statement of....................................    39
Statement of Witnesses:
    MacGuineas, Maya C., President, Committee for a Responsible 
      Federal Budget, and Director, Fiscal Policy Program, New 
      America Foundation.........................................    42
        Prepared statement of....................................    45
    Lilly, Scott, Senior Fellow, Center for American Progress....    49
        Prepared statement of....................................    53
Statements Submitted for the Record:
    Conrad, Honorable Kent, a Senator in Congress from the State 
      of North Dakota............................................     9
    Hastings, Honorable Alcee L., a Member of the Committee on 
      Rules......................................................    25
Additional Materials Submitted for the Record:
    Joint letter from the Senate Committee on the Budget, dated 
      October 14, 2011...........................................    10
    Letter from the Bipartisan Policy Center, dated April 15, 
      2011.......................................................    62
    Letter from Citizens Against Government Waste, dated April 
      19, 2011...................................................    63


    H.R. 114, THE BIENNIAL BUDGETING AND APPROPRIATIONS ACT OF 2011

                              ----------                              


                       TUESDAY, JANUARY 24, 2012

                  House of Representatives,
    Subcommittee on Legislative and Budget Process,
                                        Committee on Rules,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m. in 
Room H-313, The Capitol, Hon. Pete Sessions (chairman of the 
subcommittee) presiding.
    Present: Representatives Sessions, Foxx, Dreier, and Polis.

 OPENING STATEMENT OF THE HONORABLE PETE SESSIONS, CHAIRMAN OF 
       THE SUBCOMMITTEE ON LEGISLATIVE AND BUDGET PROCESS

    The Chairman. The subcommittee will come to order. I want 
to welcome everyone today to our first subcommittee hearing of 
the 112th Congress, and I want to thank Ranking Member Hastings 
for helping me with his continued assistance for the 
subcommittee. I also want to say that I am sorry that Alcee is 
not well today and that Jared Polis will be in his stead. 
Welcome, and thank you for taking time to be here.
    Mr. Dreier. Very sad.
    The Chairman. I also want to thank the young chairman of 
the Rules Committee, David Dreier, who is an energetic 
proponent for biennial budgeting and is a sponsor, the lead 
sponsor of this measure that we are considering today. And I 
think that as we hear from David and others on this panel, we 
will see where this is an idea that not only has great merit 
but one which we should be moving forthrightly through this 
Congress.
    This hearing before the Subcommittee on Legislative and 
Budget Process will examine H.R. 114, the Biennial Budgeting 
and Appropriations Act of 2011. Biennial budgeting has been a 
topic of reform since 1977 in the United States, and we will 
see the interest that surrounds that and the ideas which I 
believe today make it very important for us to discuss for not 
only the success of our budgeting process but the success of 
the American people. Perhaps John Adams may have exaggerated a 
bit when he said, and I quote, ``But when progress has been 
made, it has been because policymakers have absorbed lessons 
from past experience and applied them in ways that have 
improved our processes for governance.''
    Ladies and gentlemen, that is a good quote, and we should 
learn from not only the past but also good ideas for the 
future. The budget process can be an effective tool and in fact 
should be done more effectively. But, as we see, biennial 
budgeting alleviates, I think, the burden that this Congress 
faces every year to beat multiple deadlines in both the budget 
and appropriations processes. That is the question and the 
test: Can we make both of these processes work to better our 
circumstances?
    So the hearing today is going to examine that question. We 
have several distinguished Members of Congress, and obviously 
outside witnesses, who would choose to make comments and 
provide us with policy aspects for this important issue. This 
hearing is not intended for the analysis of budget specifics, 
funding initiatives or priorities, but, rather, to step back 
and to look at the budget process and to look at recent 
interaction between the houses of Congress with the executive 
branch and to find out where we can be more effective in this 
process.
    Most of us who are sitting on the dais or testifying this 
morning have a fairly established belief that biennial 
budgeting will or could be seen as a useful tool. I don't know 
whether our fiscal house would be better or worse by its use, 
but we want to examine that. But I do know that today marks the 
1000th day since the Democratic-controlled Senate has passed a 
budget, meaning it is a tough process, and meanwhile Congress 
has failed to pass appropriations bills in a timely manner 
since fiscal year 1997, which was 15 years ago. Once again, 
that tells you how difficult the process is.
    Are we at a point where the consensus of this legislative 
body is where we no longer should make hard choices to support 
the fiscal health of this Nation? That is a good question. And, 
obviously, if the process has not worked for 15 years, it is a 
question that we should answer. I think we do need to look at 
the process and make the hard choices to ensure that our 
government works properly.
    Do we employ further reforms such as biennial budgeting in 
an effort to reverse the course of the last 1000 days? I would 
say we should build in some process that works well and that 
the American people can count on, as well as the two bodies as 
we move forward.
    I understand all too well the need for ideological 
attentiveness. I do understand that we have and see things from 
different lenses and different angles, but at least the current 
House leadership has put forward ideas allowing for a 
deliberative process.
    On January 17th of this new year, Majority Leader Harry 
Reid's deputy chief of staff and policy director all but 
admitted that Senate Democrats would again not even begin the 
work on a budget in the Senate. I think that is a betrayal of 
congressional process. I believe we need a clear record that 
the American people can have confidence in and that both bodies 
should find a way to work together through proper planning.
    Most importantly, we must become more efficient as a 
government. And I am a cosponsor of H.R. 114 because I believe 
that utilizing the same long-term planning, just as I did in 
the private sector for 16 years, allows us to prepare more 
effectively for the future. If we intend for government to be 
effective and efficient, we need to give them not just the 
tools, but the money and the authority to work properly.
    The Congress cannot direct this country on a day-to-day or 
month-to-month existence, focusing not on the best fiscal 
practices, but really just on the short-term needs of the two 
parties. Longer Federal contracts provide the best opportunity 
to save taxpayers' dollars and dedicating more time to 
oversight. However, we have effective people in our government 
who can manage their business. We need to give them the tools 
where they can do that and make long-term decisions in the best 
interests of not just the American people but the taxpayer 
also.
    I believe that at a time of skyrocketing debt and 
unparalleled spending, we must look for other solutions. We 
must look above the deadlock of partisanship that has mired our 
budgetary process, and we must make progress. Biennial 
budgeting may be just one of those solutions, and I will commit 
that this subcommittee will continue to pursue not only this 
idea but other ideas or plans that others, Members of Congress 
or those outside of Congress, have.
    I am looking forward to listening to our colleagues and 
experts so that I can hear their testimony. And obviously I 
want us to know that Chairman David Dreier has pushed this idea 
for many, many years, and he today has made sure that he would 
make himself available for any remarks and to help us to 
understand his great idea.
    [The statement of Mr. Sessions follows:]
     Prepared Statement of the Honorable Pete Sessions, Chairman, 
             Subcommittee on Legislative and Budget Process

    The Subcommittee will come to order.
    Good morning and thank you for coming to our first Subcommittee 
hearing of the 112th Congress. I would like to welcome Ranking Member 
Hastings and thank him for his continued assistance as this 
Subcommittee moves forward with hearings. I would also like to thank 
Chairman Dreier who is an energetic proponent for biennial budgeting, 
and is the sponsor of the measure we will be considering today. I hope 
he finds this hearing informative.
    This hearing before the Subcommittee on Legislative and Budget 
Process will examine H.R. 114, the Biennial Budgeting and 
Appropriations Act of 2011. Biennial budgeting has been a topic of 
reform since 1977 in the United States and as we see from the interest 
in this hearing, it continues today.
    Perhaps John Adams may have exaggerated a bit when he said, ``But 
when progress has been made, it has been because policymakers have 
absorbed lessons from past experience and applied them in ways that 
have improved our processes for governance.'' The budget process can be 
an effective tool. But can biennial budgeting alleviate the burden that 
this Congress faces every year to meet multiple deadlines in both the 
budget and appropriations processes? That is the question that our 
hearing today will seek to answer through the testimony of several 
distinguished Members of Congress and our outside witnesses.
    This hearing is not intended for the analysis of budget specifics, 
funding initiatives and priorities, but rather to step back and look at 
the budget process, to look at the recent interactions between the 
Houses of Congress, and with Executive Branch, to see where we can 
provide for more effectiveness.
    Most of us who are sitting at the dais or testifying this morning 
have a fairly established belief that biennial budgeting will or will 
not be a useful tool. I don't know whether our fiscal house would be 
better or worse as a result of its use. But, I do know that today marks 
the 1,000th day since the Democratic-controlled Senate last passed a 
Budget. And meanwhile, Congress has failed to pass appropriations bills 
in a timely manner since Fiscal Year 1997; 15 years ago.
    Are we at a point where the consensus of this legislative body is 
that we no longer should make hard choices to support the fiscal health 
of this Nation? Do we employ further reforms, such as biennial 
budgeting, in an effort to reverse the course of the last 1,000 days, 
or should we resign the budget process to the scrapheap of historical 
Congressional reforms?
    I understand all too well the need for ideological attentiveness. 
But, at least the current House Leadership has put forward ideas and 
allowed for a deliberative process. On January 17th of this New Year, 
Majority Leader Harry Reid's Deputy Chief of Staff and Policy Director 
all but admitted that Senate Democrats would again not even begin work 
on a budget. That is a shameful betrayal of a Congressional process 
that has a clear track record of driving down wasteful spending through 
proper planning.
    Most importantly, we must become more efficient as a government. I 
am a cosponsor of H.R. 114 because I believe that utilizing the same 
long-term planning as the private sector allows us to prepare more 
effectively for the future. The Congress cannot direct this country on 
a day-to-day or month-to-month existence, focused not on the best 
fiscal practices, but by short-term spending bridges. Longer federal 
contracts provide the best opportunity to save taxpayer dollars, while 
dedicating more effort to oversight.
    I believe that at this time of skyrocketing debt and unparalleled 
spending, we must look for solutions. We must rise above the deadlocked 
partisanship that has mired our budgetary planning in hopelessness. 
Biennial budgeting may just be one of the solutions and I will commit 
that this subcommittee will continue to pursue any and every proposed 
plan that will restore order to our fiscal house.
    I am looking forward to listening to our colleagues and experts 
testify so I will yield back my time and recognize Chairman Dreier, a 
staunch supporter of biennial budgeting during his tenure in Congress, 
for any opening remarks he may have.

    The Chairman. So at this time I would like to, if I can, 
defer to the gentleman, Mr. Polis.

OPENING STATEMENT OF THE HONORABLE JARED POLIS, A MEMBER OF THE 
                       COMMITTEE ON RULES

    Mr. Polis. Thank you, Mr. Chairman. I join Chairman 
Sessions in welcoming our distinguished witnesses here today. 
Thank you for appearing before our subcommittee hearing on H.R. 
114, the Biennial Budgeting and Appropriations Act of 2011, so 
welcome to our subcommittee. Again, I think this idea certainly 
has some merits. I, however, don't believe it is a fix-all or 
somehow remedies all the problems we have with our budgetary 
process; and certainly while it has advantages, it also has 
disadvantages, and I look forward to exploring those here 
today. And many Members will benefit from this information 
because I think it will be a close call between the advantages 
and the disadvantages that we will explore over the course of 
this hearing. Ultimately, it doesn't solve the primary issues 
with the dysfunction around our budgetary process. It doesn't 
mean that it is not or can't be a constructive step in its own 
right. Obviously if this body wanted to, we could agree to a 
budget in 1 day or 1 week, but the budget process by its very 
nature is intensely political. We bring different values to 
that discussion, and we have vociferous debates about the 
merits of our respective budgets.
    Even under this proposal in the off years, Congress would 
still be required to make necessary changes, consider 
supplemental spending, and would continue to argue over 
authorizations and other revisions within the budget. So, too, 
the fundamental challenge that this Congress has to balance the 
budget is not affected one way or the other by this particular 
proposal, and I would hope that Congress and perhaps even the 
subcommittee can, in fact, take up reforms that would lead to a 
balanced budget and not just more predictability over time and 
some of the other factors that this affects.
    If both parties want to work together to ensure a smooth 
budget process, they can do so now. They could also do so under 
this proposal. This does not in any way, in my opinion, lead to 
a better outcome with regard to budgeting. But, again from a 
predictability perspective and other factors, we look forward 
to exploring both the benefits and the costs of this particular 
approach.
    We know that in a Federal budget process, we have a 
political debate, and making the Federal budget biennial won't 
stop those debates. It won't necessarily reduce our workload. 
It will, for better or worse, transfer some power to the 
executive branch, which would have additional leeway during the 
off years, and that is a theme to explore here.
    We have ample evidence from the States which we will look 
forward to discussing during the hearing as well. It is my 
understanding that 19 States have a biennial process, some of 
which only have a legislature that meets biennially; others 
have a legislature that meets both years, but the budget 
process is only biennial. And we will look forward to receiving 
and being the beneficiaries of some of the learning from those 
States that have both processes.
    My home State of Colorado has an annual budgeting process, 
but we will look forward to hearing about the evidence from the 
States about whether this leads to less time spent on 
budgeting, less overhead for budgeting, a better budget, a more 
balanced budget, et cetera.
    We really should be discussing the ways to use a Federal 
budget to create jobs, order our economy, and balance the 
budget, and I believe some structural changes to our budgetary 
process are needed to lead to a better outcome. Again, this 
discussion today should be an interesting one. I look forward 
to receiving the testimony about whether our budgetary process 
should be annual or biennial, and I am hopeful that we can 
subsequently engage in a discussion of some of the more serious 
issues concerning our lack of success in balancing our Federal 
budget and in getting the House, the Senate, and the President 
on one page. I thank the chairman for his time, and I yield 
back.
    The Chairman. I thank the gentleman from Colorado not only 
for his comments, I recognize he has private sector experience 
where he has seen the attributes of not only necessary and 
early budgeting but also perhaps an opportunity to have an open 
mind that he has. Today I am also honored to have the chairman 
of the full committee, a man who is dedicated to making sure 
that we follow not only regular order, but have ideas that are 
shared among not just our colleagues but really the general 
public as well, and I would like to recognize the gentleman for 
such time as he would wish to----
    Mr. Dreier. Do you want to recognize Ms. Foxx first?
    The Chairman. I would. I will go to the gentlewoman from 
Grandfather, North Carolina, the gentlewoman, Ms. Foxx.
    Ms. Foxx. Thank you very much, Mr. Chairman. I agree with 
you that we should defer to the chairman of the full committee. 
I have no comments. I would be happy to hear from Chairman 
Dreier.

 OPENING STATEMENT OF THE HONORABLE DAVID DREIER, CHAIRMAN OF 
                     THE COMMITTEE ON RULES

    Mr. Dreier. Thank you very much, Mr. Chairman, and let me 
say this is a very interesting perspective, sitting where I am 
right now. I have never sat in this chair before in my life, 
but it is nice to be here. And I want to just make a couple of 
very brief comments.
    I thank you, Chairman Sessions, and Mr. Polis. I think that 
for the record we should say that Mr. Hastings, whom we are 
sorry is not well, the ranking member of the subcommittee, is 
an enthusiastic supporter of this issue, and I am----
    Mr. Polis. Would the gentleman yield for a moment?
    Mr. Dreier. I am happy to yield.
    Mr. Polis. I am not sure that that characterization is 
correct. I think he, too, like myself, has an open mind, but I 
would not--I have not received word from the ranking member 
that is a strong supporter of this initiative.
    Mr. Dreier. Well, I have. I have received that word, if I 
could reclaim my time, and I have been told that Mr. Hastings 
is an enthusiastic supporter of the notion of biennial 
budgeting. And obviously if he were here, he could speak for 
himself, and so anyway--but if I could proceed, I just, in 
thinking about this issue, I am here because of a couple of 
appropriators. One, the former chairman of the committee who is 
sitting before us, and the other a former member and chairman 
of the Subcommittee on Health and Human Services, Mr. Regula.
    Mr. Young and Mr. Regula approached me probably a decade 
and a half ago when we were talking about the issue of biennial 
budgeting, and I was surprised because traditionally there has 
been opposition from members of the Appropriations Committee on 
this issue, believing somehow that going to a biennial process 
undermines the sword of Damocles, the power over the purse, as 
Madison put it in Federalist number 48, to do it on an annual 
basis, and that is the only way to adequately do oversight. 
When these two great appropriators, Chairman Young and Chairman 
Regula, indicated to me that they believed not only could it 
save money but it would enhance the ability for the 
Appropriations Committee to do greater oversight on this 
issue--and if you look at the 1974 Budget Impoundment Act, I 
ran for Congress just actually three years after the 1974 
Budget Impoundment Act was put into place. And if you look at 
what has happened since that time, Democrats and Republicans 
alike recognize the budget process itself is broken. Steps need 
to be taken. And we all know the overused Einstein quote: The 
definition of insanity is doing the same thing over and over 
and over again, expecting a different result.
    But the fact of the matter is, how many times since the 
establishment of the 1974 Budget Impoundment Act have we 
successfully been able to complete the entire budget and 
appropriations process? Very, very rarely has that happened.
    Now, I will say that I understand that there is a wide 
range of views. I have read the opposition. I just last night 
read the study from the Center on Budget Policy, I have read 
from the Council of State Legislatures, there has been a mixed 
view from that Laboratory of the States on this. Some States 
have gone from annual to biennial, some have gone from biennial 
back to an annual process, and so I think that it is important 
to have an open mind on this.
    I think it is also important for us to realize that there 
are a number of people who have been opponents in the past and 
are now enthusiastic backers. Ed Whitfield and Charlie Bass and 
lots of other people, lots of Democrats have joined working 
together on this issue in the past. We worked with Pete 
Domenici, the former chairman of the Budget Committee, and you 
remember, Ed, those meetings we had repeatedly with Chairman 
Domenici as we were working to pass this measure--and you do, 
too, Bill--in the early part of this decade. Actually it was 
May 16th of 2000, we got over 200 votes, the highest number of 
votes we have ever gotten on any budget process reform measure 
on the House floor when we offered this as an amendment 12 
years ago this coming May. And one of the strong opponents of 
biennial budgeting has been the current chairman of the Senate 
Budget Committee, Kent Conrad. Kent Conrad has done a 180-
degree. He and I have had several discussions in which he said, 
I was a strong opponent of biennial budgeting, but I believe 
that it is absolutely essential for us to move towards a 
biennial process if we are going to have a chance to tackle the 
challenges that Mr. Polis has correctly raised that need to be 
done.
    Obviously, job creation and economic growth are very, very 
important. Working towards fiscal responsibility is important. 
Our constitutionally mandated responsibility of congressional 
oversight is critically important, and so there are so many 
things that I believe we can do. Biennial budgeting is not a 
panacea to all the ailments of society. I am the first to admit 
that. But I do believe that these, exploring new ideas--I don't 
know that we are going to end up with a complete, complete 
process that is biennial. Maybe we begin with incremental steps 
on this. Maybe that is a first step because States have had a 
mixed view on this. But I do believe that it is time for us to 
really get off the dime and move ahead because of what we 
recognize. I mean, Virginia is wearing the 1000 days button, 
Pete talked about the fact that we have gone 1000 days without 
action in the Senate.
    You know what? We all have responsibility for the problems 
that have taken place. I mean, I happen to think that this past 
year we have done pretty well. We passed a budget. We have 
tried our doggonedest to get the appropriations process 
through, but with our hands tied it has been difficult for all 
of us. So I want to express my appreciation to Bill Young and 
to Ed Whitfield, whom I know are both here, Mr. Chairman, as 
proponents of this. And my very dear friend David Price is not 
as enthusiastic on this issue, I know, as a member of the 
Appropriations Committee, but we very much wanted to hear from 
him. We are going to hear from Reid Ribble, who is a member of 
the Budget Committee and has embraced this notion as well, and 
Mr. Lilly is here, and I know we are going to have other 
witnesses.
    We wanted to have both perspectives, and so you have put 
together what I think will be an interesting first subcommittee 
hearing that we have had in this Congress, and I appreciate 
that and look forward to hearing from our witnesses, Mr. 
Chairman. Thank you.
    The Chairman. Chairman Dreier, thank you very much. I think 
that there are perhaps--and if we had given you another 10 
minutes, I am sure you would have alluded to it--I think the 
American public has a say in how we are seen, that we should 
understand that the public needs to have confidence in what we 
do. And secondly, managers of the government, the business of 
all the agencies, they need the assurance that Congress cannot 
only hear from them, but give them the necessary tools to act 
efficiently.
    Obviously, the vice chairman of this subcommittee, the 
gentlewoman, Ms. Foxx, has a dynamic and distinguished 
background in the free enterprise system as well as government, 
and I want to thank her for not only being here today but 
lending her time and talent to this effort.
    Without objection, I would like to enter into the record 
two statements, one from the gentleman Kent Conrad and a joint 
letter of Patty Murray and Jeb Hensarling. Without objection, 
that will be entered into the record.
    [The statement of Senator Conrad follows:]
    [The joint letter from the Senate Committee on the Budget 
follows:]
Prepared Statement of the Honorable Kent Conrad, a Senator in Congress 
                     From the State of North Dakota

    I want to thank Chairman Dreier and Ranking Member Slaughter for 
inviting me to submit testimony to the House Rules Committee on the 
subject of biennial budgeting.
    Throughout my tenure as Senate Budget Committee Chairman, I have 
been focused on ways we could improve and reform the congressional 
budget process. For years, I opposed reforms that involved moving to a 
biennial budget, because I felt the federal government, like any large 
business or organization, needed to establish a budget each year. But I 
now believe the time for biennial budgeting has come.
    This past fall, I held a hearing focused on biennial budgeting. 
Based on testimony at that hearing and further discussions with Budget 
Committee Members, both Democrats and Republicans, Ranking Member 
Sessions (R-AL) and I sent a letter to the Joint Select Committee on 
Deficit Reduction recommending a switch to biennial budgeting. I am 
submitting a copy of that joint letter and request that it be included 
in the Committee record for this hearing.
    My reason for supporting biennial budgeting is clear. The current 
budget process is simply not working. It has become increasingly 
difficult to pass and conference a budget resolution, particularly 
during election years. Year after year, we face continuing resolutions, 
omnibus bills, supplementals, and, increasingly, threats of shutting 
down the government. At the same time, we see far too little oversight 
of federal agencies and programs. Biennial budgeting won't solve all of 
these problems. But it could help.
    It is important to remember that Congress has effectively moved to 
biennial budgeting already. In fact, since 1998, budgets have been 
passed in only two election years--in 2000 when Senator Domenici was 
Chairman of the Senate Budget Committee and 2008 when I was Chairman.
    Moving to biennial budgeting would allow Congress to spend more 
time on oversight. Under the current system, as soon as the budget 
process ends for one fiscal year, the next year's process has begun. 
This leaves little time for Congress to focus on authorizations and 
oversight, or to examine mandatory spending and tax policy with the 
rigor that these parts of the budget require. Biennial budgeting would 
appropriately shift Congress's attention to longer-term budgetary 
issues and the oversight that is critically needed in this era of 
constrained federal resources. It would result in more accountability 
from the Executive Branch--ensuring that scarce federal resources are 
being used efficiently and effectively.
    Moving to biennial budgeting could also result in a reduction in 
the use of continuing resolutions and omnibus bills. And it would allow 
for better long-term planning by federal agencies and programs.
    Several variations of biennial budgeting have been proposed. As 
Senator Sessions and I noted in our joint letter, we believe the most 
effective biennial budgeting framework would include the following 
elements: In odd-number years, the President would submit a two-year 
budget and Congress would pass a two-year budget resolution. Congress 
would focus on authorizations and oversight when not budgeting. The 
Budget Committees would conduct performance-based reviews of federal 
programs. These reviews would examine discretionary and mandatory 
spending programs, as well as tax expenditures and other revenue-
related policies. And the Budget Committees would issue a report and 
other materials in the off year detailing the findings and conclusions 
of the Committee, including recommendations regarding underperforming 
federal programs.
    The Senate Budget Committee did not have agreement on whether 
appropriation bills should be enacted on one- or two-year cycles, or a 
combination of one- and two-year cycles. However, many members of the 
Committee support biennial appropriations as well as biennial budgets.
    As I noted, biennial budgeting won't solve all of our budget 
problems. Ultimately, the nation's long-term fiscal imbalance will only 
be solved with a bipartisan, comprehensive, and balanced deficit and 
debt reduction agreement. But biennial budgeting could make a positive 
contribution toward fiscal discipline. And there is growing bipartisan 
support in both the House and Senate for changing to a biennial budget 
cycle.
    Again, I want to thank Chairman Dreier and Ranking Member Slaughter 
for inviting me to submit testimony on this critical budgeting issue.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. At this time I would like to acknowledge and 
welcome the first panel that we have, obviously three 
distinguished Members of Congress, as Chairman Dreier had 
alluded to. Perhaps they come with agreement or not, but they 
come with ideas, and this subcommittee hearing today, and what 
we are trying to do in this process is to hear from people who 
are deeply engaged in that process.
    As a former member of the Budget Committee, I have my own 
opinion, but today we are going to look at those who have their 
opinions based upon vast service to this United States 
Congress. And I would like to welcome Congressmen Bill Young, 
Ed Whitfield, and David Price as they come to testify today.
    And by way of introduction, Chairman Young, thank you for 
taking time to address this important issue. You were the last 
chairman of the Appropriations Committee to oversee a balanced 
annual budget. That is important. And those who have a steady 
hand on that wheel understand how hard that is. He is also 
cosponsor of the biennial budgeting bill that is before us 
today.
    Congressman Ed Whitfield serves on the Energy and Commerce 
Committee, and obviously he is a long-time advocate for the 
biennial budgeting and has worked with David Dreier to 
introduce H.R. 114.
    And I am delighted to have David Price, our friend who is a 
well respected member of the Appropriations Committee, 
currently serving as the ranking member of the Subcommittee on 
Homeland Security. Congressman Price is also co-chair of the 
Democratic Budget Group. So we welcome all three of you. I 
would like to acknowledge the gentleman, Mr. Young.

STATEMENT OF THE HONORABLE C.W. BILL YOUNG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Young. Mr. Chairman, thank you very much. I think that 
it is appropriate that this subject be discussed openly and in 
a legislative forum because it certainly has a lot of merit. At 
least I believe so. And Chairman Dreier and I have worked 
together on this issue now for many, many years, and we don't 
see any political advantage or political disadvantage. This has 
nothing to do with politics. It has to do with getting our work 
done.
    Article I, Section 9 of the Constitution makes it very 
clear that appropriations bills are must-pass legislation. Too 
often we end up not passing an appropriations bill, but we pass 
a CR or we lump a lot of appropriations bills into an omnibus 
or a mini-omnibus. In my opinion, that is not a good practice, 
whether it is a governmental agency, whether it is the Defense 
Department--and they would be very big on this issue--or 
private business or even in your home. You have got to be able 
to plan. You can't just jump from one issue to another when you 
are planning your financial stability in your family, your 
business, or your government agency.
    If appropriations bills don't pass, it is hard to plan. 
Now, we have passed 2-year appropriations bills. This is not 
something that is new. I would give you this example. In 
calendar year 2010 we didn't pass appropriations bills. We 
ended up in 2011 and passed most of the appropriations bills 
from the previous year on a CR. One of the few exceptions was 
the defense appropriations bill. So we actually introduced that 
bill, it became part of H.R. 1. It was conferenced with the 
Senate in the regular process, and we did pass a good bill. I 
want to give my friend and my colleague Congressman Norman 
Dicks a lot of credit. He was chairman after Jack Murtha's 
untimely death. Norm Dicks was chairman of the subcommittee, 
and as usual we worked together to produce a bill. Whoever is 
chairman or ranking member, we work together to produce the 
defense bill. The problem was that Chairman Dicks had a good 
defense bill, but couldn't get it on the floor. Leadership 
wouldn't even let him go to the full committee with it. And so 
that didn't pass.
    So the early part of 2011, we did take up H.R. 1, which was 
the defense bill for fiscal year 2011. Then after we completed 
that, we began the process for the 2012 defense bill, and we 
passed that. We went through the regular order, we went to the 
Senate and conferenced with our Senate colleagues. We had a 
good bill. We had a very large bipartisan vote in the House and 
the Senate, and so we actually did pass in 1 year 2 years of 
appropriations for national defense.
    With regard to being able to plan ahead, one of the issues 
that we have in defense budgeting is you start a project, you 
stop a project, you terminate the project. Termination costs 
are very expensive. By being able to budget for at least 2 
years, you can plan ahead a little better and try to avoid 
having these programs that stop-start-stop-start, which, as I 
said, are very, very expensive.
    Now, there are some who might think the Constitution says, 
well, you must appropriate every year. It doesn't say that. To 
the contrary, I looked very closely to make sure that my 
recollection was accurate, because I read the Constitution on a 
regular basis, especially the part about appropriations.
    The founders of our great system, our constitutional 
system, included in Article I, Section 8 of the Constitution 
this language: ``To raise and support armies, but no 
appropriation of money to that use shall be for a longer term 
than 2 years.'' Now, the founders didn't say you had to do it 
for 2 years, but they did say you can't do it for longer than 2 
years. This says to me that they made it possible for a 2-year 
budget process and for 2-year appropriations bills. So I think 
we are on good constitutional grounds to do this, and I think 
the effectiveness of a 2-year budget should be pretty much 
recognized.
    But I would just close on this one point, Mr. Chairman. For 
those of us, especially who are appropriators, we get 
criticized in the media considerably; well, why did this 
happen, why did that happen? This contract really blew out of 
proportion or this contract doesn't work.
    In order to get the proper oversight, you have got to have 
time. Getting a bill written, with all of the hearings, with 
all of the process of going to subcommittee, going to the full 
committee, going to the floor, and then going to conference 
with the Senate, it is very time consuming. Now, if we had a 2-
year process, we could spend 1 year doing the oversight that we 
get criticism about for not doing enough oversight. Well, there 
are only so many hours in a day. We should do more oversight, 
and I would like to do more oversight on the subcommittee that 
I chair. If we had a 2-year process, I could spend a whole year 
doing oversight and finding out about those problems, 
hopefully, finding out about those problems that might come 
back to bite us later on. But when your time constraints are a 
problem, that is not always possible.
    So you could appropriate one year and do a year's worth of 
oversight, which in my opinion would be very, very cost 
productive for the taxpayer and would make much more efficient 
Federal agencies that could plan ahead a little bit more than 
they can plan ahead today, especially with the use of so many 
CRs and a lot of uncertainty in where we are going.
    That is my story today, Mr. Chairman. Thanks for the 
opportunity to relate it.
    The Chairman. Chairman Young, thank you very much, and I am 
sure you are going to stick to the process that you have 
outlined because there should be a better result that comes 
from that. I want to thank you for taking time to be with us 
today to lend your not only insight but the advantages of your 
service to this great Nation, and in particular to the men and 
women of our military who protect this great Nation every 
single day.
    The gentleman Mr. Price is recognized.

STATEMENT OF THE HONORABLE DAVID E. PRICE, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Price. Thank you, Mr. Chairman. It was almost a dozen 
years ago that I testified before this distinguished committee 
about a proposal very similar to the one before us today. 
Circumstances, however, are very different. There had been 
multiyear budgeting--budget agreements enacted in 1990, 1993, 
and 1997--and the economy was doing very well. All this had 
produced several years of balanced budgets, and we were paying 
down more than $400 billion of this Nation's debt.
    Now it is not the same. Following a decade of net zero 
economic growth, trillions of dollars in lost tax revenues, two 
unpaid-for wars, a necessary but expensive government response 
to the great recession, and after a year in which admittedly 
worst of congressional budget politics has been on full 
display, it is understandable that the idea of biennial 
budgeting would once again hold some appeal for Members in 
search of solutions to our current woes.
    I, in particular, have deep respect for my good friend 
David Dreier who has championed this proposal. There is no 
question that his concern for the well-being of our institution 
is as great as any Member of this House. But I have to say that 
I believe this is a flawed remedy, a remedy that might actually 
be worse than the disease.
    I am, of course, the first to agree that the congressional 
budget and appropriations processes have eroded significantly. 
The pressures of divided government, a polarized electorate, 
the increased use of the Senate filibuster, and the general 
subjugation, I fear, of Congress' power of the purse to 
partisan political consideration have greatly delayed the 
enactment of our annual spending bills and have increased our 
reliance on bloated omnibus packages. But biennial budgeting 
would do nothing to address the underlying causes of this 
dysfunction and would likely make matters worse by weakening 
congressional oversight of the executive, by jacking even more 
decisions up to the leadership of both parties, and by 
increasing our reliance on supplemental appropriations bills 
considered outside the regular order.
    Most importantly, biennial budgeting would weaken Congress' 
power to shape national priorities by conducting effective 
oversight of the executive branch. Proponents of biennial 
budgeting claim that it would, quote, ``free up Congress to 
conduct oversight in the off year.''
    Now, that claim is supremely ironic, for the most careful 
and effective oversight Congress conducts is through the annual 
appropriations process where an agency's performance and needs 
are reviewed program by program, line by line. That is 
oversight. It is probably the best oversight we conduct. An 
off-year oversight would be less, not more, effective, because 
it would be, in a word, impotent, further removed from actual 
funding decisions.
    Supporters also like to note that four recent Presidents, 
George W. Bush, Bill Clinton, George H.W. Bush and Ronald 
Reagan, all supported biennial budgeting. Why are we not 
surprised? Of course they did. If this suggests that the 
proposal is not a partisan issue, it should warn us it 
definitely is an institutional issue. Of course, Presidents 
would support a free pass every other year from a legislative 
process that could make or break their agenda, just as they 
tend to support the line-item veto. They love it. A ban on 
congressional earmarks, they love that, too, and other 
challenges to Congress' authority vis-a-vis the executive 
branch.
    Now, I am aware of the charge that opponents of biennial 
budgets are merely defending Appropriations Committee turf. I 
am sensitive to that, because I am a senior appropriator. But 
the annual work of appropriations serves the entire institution 
and its place in the constitutional balance of power. That is 
the fundamental truth about appropriations if it works the way 
it should, and in one respect it could make the work of 
appropriations leaders less accountable. Faced with outdated 
and unworkable funding levels for individual programs in the 
second year of a biennial appropriation, each Federal 
department will be forced to present the Appropriations 
Committee with countless requests to reallocate or reprogram 
their annual budgets. Typically, those requests are granted or 
denied solely by the Appropriations subcommittee chairmen and 
ranking members without debate, without amendments, without 
votes, without public scrutiny.
    Off-year budget problems that could not be handled through 
reprogramming requests would necessitate supplemental 
appropriations bills. We already enact supplemental bills when 
unforeseen emergency needs crop up after an appropriations bill 
has been enacted.
    Budgeting 2 years in advance can only lead to a greater 
mismatch between the country's needs and agency budgets. In 
fact, the whole purpose of a biennial budget could be 
undermined by the proliferation of supplementals in off-years. 
Perversely, we would have replaced the deliberative and 
democratic process of annual appropriations with supplemental 
bills that are sporadic, rushed, and heavily controlled by 
leadership.
    In fact, our experience last year should lead us to 
conclude, if anything, that the annual appropriations process 
might be the best chance we have for the kind of bipartisan 
cooperation that will be required to get a handle on our long-
term fiscal situation.
    Where the supercommittee failed to come to agreement even 
on the basic terms of a long-term deficit reduction package, 
the Appropriations Committee produced two year-end 
appropriations packages that, while far from perfect, produced 
significant budget savings. And they were drafted, considered, 
and approved on a bipartisan basis, and both Chairman Rogers 
and Ranking Member Dicks are due a great deal of credit for 
that.
    So for reasons practical as well as institutional, biennial 
budgeting isn't any better an idea today than it was a decade 
ago. It would be a mistake to allow recent budget disagreements 
to lure us toward a supposed remedy that actually would make 
the appropriations process less systematic, less flexible, and 
less potent. It isn't the congressional budget process that is 
in need of repair, it is our collective will to make difficult 
and politically costly decisions.
    So I urge colleagues to reject the siren song of biennial 
budgeting, to redouble our efforts to address the underlying 
causes of our long-term fiscal challenges. Thank you.
    The Chairman. Mr. Price, thank you very much not only for 
your ideas but also your voice today. This subcommittee, as 
well you know, the Rules Committee is the sounding board for 
Members as part of the process who agree and disagree, and your 
testimony years ago as well as your testimony today is 
something that I believe we have to take into account. With 
that said, we also believe looking at the issue and the idea to 
make it better is important. So thank you for taking time to be 
with us today.
    [The statement of Mr. Price follows:]
        Prepared Statement of Congressman David E. Price (NC-04)

    A dozen years ago next month, I testified before this distinguished 
Committee about a proposal very similar to the one you are considering 
today. The circumstances could have not been more different: the 
enactment of multi-year budget agreements in 1990, 1993, and 1997, 
coupled with a growing economy, had produced several years of balanced 
budgets and allowed us to pay down more than $400 billion of the 
national debt. The consequences of the George W. Bush Administration's 
fiscal policies had not yet been foreseen.
    Following a decade of zero net economic growth, trillions of 
dollars in lost tax revenue, two unpaid-for wars, and a necessary but 
expensive government response to the Great Recession--and after a year 
in which the worse of congressional budget politics have been on full 
display--it is understandable that the idea of biennial budgeting would 
once again hold some appeal for well-intentioned Members in search of 
solutions to our current woes. I have a deep respect for my good friend 
Chairman Dreier, whose concern for the well being of our institution is 
as great and as genuine as any member of this House. But this is truly 
a case in which the remedy is worse than the disease.
    I am the first to agree that the congressional budget and 
appropriations processes have eroded significantly in recent years. The 
pressures of divided government and a polarized electorate, the 
increased use of the Senate filibuster, and the general subjugation of 
Congress's ``power of the purse'' to partisan political considerations 
have greatly delayed the enactment of our annual spending bills and 
have increased our reliance on bloated omnibus packages.
    But biennial budgeting would do nothing to address the underlying 
causes of this dysfunction--and would likely make matters worse by 
weakening congressional oversight of the executive, jacking even more 
decisions up to the leadership of both parties, and increasing our 
reliance on supplemental appropriations bills considered outside of the 
regular order.
    Most importantly, biennial budgeting would weaken Congress's power 
to shape national priorities by conducting effective oversight of the 
Executive Branch. Proponents of biennial budgeting claim that it would 
``free up'' Congress to conduct oversight in the off year. That claim 
is surprisingly ironic, for the most careful and effective oversight 
Congress conducts is through the annual appropriations process, when an 
agency's performance and needs are reviewed program by program, line by 
line. Off-year oversight would be less, not more, effective because it 
would be, in a word, impotent, further removed from actual funding 
decisions.
    Supports like to note that four recent presidents--George W. Bush, 
Bill Clinton, George H.W. Bush, and Ronald Reagan--all supported 
biennial budgeting. Of course they did! If this suggests that the 
proposal is not a partisan issue, it should warn us that it is 
definitely an institutional power issue. Of course Presidents would 
support a free pass every other year from a legislative process that 
could make or break an administration's agenda--just as they tend to 
support the line-item veto, a ban on congressional earmarks, and other 
challenges to Congress's authority vis-a-vis the Executive Branch.
    It is often asserted that opponents of biennial budgeting are 
merely defenders of Appropriations Committee turf. As a senior 
appropriator, I am naturally sensitive to these charges. But the annual 
work of appropriations serves the entire institution and its place in 
the constitutional balance of power. And in one respect it could make 
the work of appropriations leaders less accountable: faced with 
outdated and unworkable funding levels for individual programs in the 
second year of a biennial appropriation, each federal department will 
be forced to present the Appropriations Committee with countless 
requests to reallocate, or ``reprogram,'' their annual budgets. 
Typically, those requests are granted or denied solely by the 
Appropriations Subcommittee Chairmen and Ranking Members without 
debate, amendments, or votes--and without public scrutiny.
    Off-year budget problems that could not be handled through 
reprogramming requests would necessitate supplemental appropriations 
bills. We already enact supplemental bills when unforeseen emergency 
needs crop up after an appropriations bill has been enacted. Budgeting 
two years in advance will only lead to a greater mismatch between the 
country's needs and agency budgets. In fact, the whole purpose of a 
biennial budget could be undermined by the proliferations of 
supplemental in the off-years. Perversely, we would have replaced the 
deliberative and democratic process of annual appropriations with 
supplemental bills that are sporadic, rushed, and heavily controlled by 
leadership.
    In fact, our experience last year should lead us to conclude, if 
anything, that the annual appropriations process may be the best chance 
we have of the kind of bipartisan cooperation that will be required to 
get a handle on our long-term fiscal situation. Where the 
Supercommittee failed to come to agreement even on the basic terms of a 
long-term deficit reduction package, the Appropriations Committee 
produced two year-end appropriations packages that--while far from 
perfect--produced significant budget savings and were drafted, 
considered, and approved on a bipartisan basis.
    For reasons practical as well as institutional, biennial budgeting 
isn't any better an idea today that it was a decade ago. It would be a 
mistake to allow recent budget disagreements to lure us toward a 
supposed ``remedy'' that would make the appropriations process less 
systematic, less flexible, and less potent. It isn't the congressional 
budget process that is in need of repair--it is our collective will to 
make difficult and politically costly decisions. I urge all of my 
colleagues to reject the siren song of biennial budgeting and redouble 
their efforts to address the underlying causes of our long-term fiscal 
challenges.

    The Chairman. Our next witness is from Kentucky, a senior 
member of the Energy and Commerce Committee, and I want to 
thank Mr. Whitfield for his long-term support not only of this 
bill, but really working with David Dreier as he has moved 
forward on the ideas to make sure that they are well balanced, 
that they include not just Appropriations members, but also 
those who are in close association with the commerce of this 
country to keep it moving forward. There may be lessons 
learned, but I want to thank the gentleman and would ask that 
he go ahead and present his testimony now, the gentleman Mr. 
Whitfield.

 STATEMENT OF THE HONORABLE ED WHITFIELD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF KENTUCKY

    Mr. Whitfield. Chairman Sessions, thank you very much, and 
Mr. Polis, Ms. Foxx, and my friend David Dreier. This is one of 
those issues that people do have very strong views on, and I am 
really pleased to have the opportunity to testify on the 
Biennial Budget and Appropriation Act of 2011.
    I would say that in 1974 when Congress passed the 
Congressional Budget and Impoundment Act, which was intended to 
give the President and Congress a timeline on which to base a 
budget and appropriations bill, that during the 36 years since 
that time Congress has met the deadline for completion of a 
budget resolution only six times. And just last year the House 
passed a fiscal year 2012 budget, the Senate was unable to act; 
and of course the Congress before that, that Congress was 
unable to act. So we have gone for over 1000 days without a 
Federal budget. And I might also say that according to CBO, 
Congress has provided $290 billion in fiscal year 2010 for 
programs whose authorizations have expired.
    Now, I don't see this as a panacea to solve our economic 
problems, our unemployment problems, the partisanship problems 
that we have in the U.S. Congress. But I do firmly believe in 
the discussions that I have had with a lot of people in my 
district, recognizing that Kentucky is only one small rural 
State, but Congress gets such bad publicity when they do not 
finish their appropriation process, when they do not have a 
budget, and I genuinely believe that part of the reason people 
have such little respect for this institution is the fact that 
every time we fail to do this--and we fail to do it 
frequently--the national news media totally focuses on the 
inability to pass a budget, to finish appropriation bills.
    And I had asked my staff, evidently the last time that we 
actually finished all appropriation bills in the House and the 
Senate, signed by the President, was 1997. We did it in 1995 
and 1989. But there is something broken about this system, and 
I have the greatest respect for my chairman of the 
Appropriations Committee, Mr. Rogers of Kentucky, and Mr. Price 
of North Carolina, and all of them who serve on the 
appropriation process, but I genuinely believe in my view that 
the appropriators drive the Congress.
    Now, we all know that leadership can do anything that it 
wants to do, and I can't imagine the leadership of the Congress 
being any stronger than it has been in the last 6, 7, 8 years, 
because the leadership controls everything. But in my view this 
gives opportunity--one of the things I find so frustrating, I 
have talked to a lot of appropriators, not Mr. Price on this 
issue, but talk about how when they are unable to finish their 
appropriation bill, they go on an omnibus bill or they go to a 
supplemental or whatever, a CR or whatever. Inevitably, since 
everyone knows that this bill has to move, all sorts of 
authorized legislation is put in there without adequate 
oversight, without adequate hearings, and I believe that it 
contributes significantly to bad legislation that we pass, bad 
changes that we pass without sufficient forethought of the 
consequences of it. And if you have--as Chairman Young said, 
the people who wrote our Constitution certainly had in mind 
that we could go to 2 years if we wanted to, and there is no 
question with the complexity of government today, with the 
amount of money being involved, I would think the appropriators 
would love to have an opportunity to one year focus on budget, 
focus on appropriation, and then next year do their oversight, 
which would also give the authorizing committees more time 
because every single year the whole Congress, the whole 
administration, is caught up in the budget process, the 
appropriations process. And as I said a while ago, I genuinely 
believe that this is a major reason why the American people 
have such little respect for the United States Congress as an 
institution.
    And I know it is not a panacea, but Mr. Dreier mentioned 
that in 2000 we did have the vote, and I remember how pleased 
we were that Mr. Young, as chairman at that time, voted for the 
legislation. The vote was 201 to 217, and I do remember certain 
Democrats who were really quite vocal at that time. Mr. Doggett 
of Texas was one. Mr. DeFazio was one. I remember Bobby Clement 
of Tennessee who is no longer with us. But, I mean, I could 
talk about this issue for a long time, as I know all of you 
could. And I am delighted that some of the freshmen members are 
going to be here testifying today, too, but I do thank the 
Rules Committee for providing us an opportunity, because 
whether we go to a biennial system or not, I think it is 
important for the American people to at least have the debate 
and have the transparency of what is perceived to be the 
problem by many of us. And with that, Mr. Chairman, thank you 
for the opportunity to be here.
    The Chairman. Mr. Whitfield, thank you very much.
    [The statement of Mr. Whitfield follows:]
         Prepared Statement of Congressman Ed Whitfield (KY-01)

    Thank you, Mr. Chairman, and thank you, Members of the Committee, 
for giving me the opportunity to be here to testify before you today.
    As you know, we currently find ourselves in the midst of uncertain 
and difficult economic times.
    Our challenged budget process, which led us to the brink of a 
government shutdown earlier this year, hampers our ability to 
effectively solve these economic problems.
    While the White House says we are on the road to economic recovery, 
families in my District, the First Congressional District of Kentucky, 
are still struggling to hold onto their jobs, their home and their 
health care.
    While the national unemployment rate has fallen to 8.5%, Kentucky's 
unemployment rate remains at an alarming 9.4%.
    In fact, many counties in my District have an unemployment rate 
that is even higher then Kentucky's state average.
    Adding to our economic troubles is the national debt, which has 
skyrocketed over the past few years, reaching almost $15.3 trillion 
today.
    In fact, Doug Elmendorf, the Director of the Congressional Budget 
Office, said that ``U.S. fiscal policy is on an unsustainable path to 
an extent that it cannot be solved by minor tinkering.''
    So, in order to maintain our global competiveness it is essential 
that we drastically reduce our federal spending.
    One way to eliminate wasteful government spending is to reform and 
streamline our budget process.
    In 1974, Congress passed the Congressional Budget and Impoundment 
Act, which was intended to give the President and Congress a timeline 
on which to base a budget and appropriations bills.
    As we well know, even when followed, the Budget Act has resulted in 
an annual rush which results NOT ONLY in a poor process, but also 
reduces the amount of time available for careful oversight and 
management of existing federal programs.
    During the 38 year history of the Budget Act, Congress has met the 
deadline for completion of a budget resolution only six times.
    Just last year, the House passed a Fiscal Year 2012 budget; however 
the Senate failed to act and Congress has gone for over 1,000 days 
without a federal budget.
    With these procedural problems in mind, I joined Representative 
Dreier in introducing H.R. 114, the Biennial Budgeting and 
Appropriations Act of 2011.
    I started working on biennial budgeting with my friend and 
colleague Chairman Dreier back in the 106th Congress, when he offered a 
biennial budget proposal as an amendment to H.R. 853, the Comprehensive 
Budget Process Reform Act of 1999. The amendment vote was close, 201 to 
217, and I haven't stopped supporting the idea since. I am very pleased 
that the issue is gaining momentum again.
    Specifically, H.R. 114 will require the President to submit a two-
year budget and Congress would consider a two-year budget resolution 
and a two-year appropriations cycle.
    I believe that a biennial budget cycle will result in better 
scrutiny of federal spending and the elimination of wasteful and 
duplicative government programs because in one year the House can focus 
on making the programs better or eliminating them, and in the next year 
the House can focus on the spending levels for those programs.
    Such oversight is badly needed. According to CBO, Congress provided 
$290.8 billion in Fiscal Year 2010 appropriations for 250 statutes 
whose authorizations had expired.
    That money should be scrutinized more thoroughly by Congress, 
especially if the authorizing committees allowed the authorizations to 
expire.
    Streamlining the budget process will allow Congress more time to 
concentrate on other important legislative issues, such as reducing 
overall federal spending and spurring economic growth so that America 
will remain globally competitive and our economy will get back on 
track.
    Thank you again, Mr. Chairman and Members of the Committee, for 
permitting me to testify before you today.
    At this time, I would be happy to answer any questions you may 
have.

    The Chairman. And for each of you who have taken time to be 
here today, I want to thank you for your words. I also would 
note that you have written remarks, and I would ask, without 
objection, that those be entered into the record, and I want to 
thank you. I would go first to the gentlewoman, the vice 
chairman of the committee, Ms. Foxx.
    Ms. Foxx. I just want to say that I have learned a lot this 
morning from the presentations that have been made by the panel 
members. It has been very enlightening, and I want to thank you 
all for the effort that you have put into working to improve 
the process that we are working under. I think we have a lot of 
work to do to educate Members, as well as the public, about our 
process and about the challenges that we face, so I just want 
to say thank you to you all for what you are doing.
    I think, as Chairman Dreier has said, it is important that 
we hear all the perspectives that are out there, and I think 
that the hearings that this subcommittee is going to hold and 
that the Rules Committee will hold also, will help bring to the 
fore some important issues that we need to be dealing with.
    It is distressing to me that we see the polls that say 
Congress is held in such low esteem. I don't think they are 
warranted because I think we have great people here on both 
sides of the aisle who want to do good things, who come here 
with the intention of making the process better and serving the 
people that they represent. So I hope that we can do some 
things that will improve our status in the eyes of the American 
people, because we learn how to do things more effectively. So 
thank you, Mr. Chairman.
    The Chairman. I thank the gentlewoman. Mr. Polis.
    Mr. Polis. Yeah I just have a couple questions for the 
panel.
    First, I would like to ask Mr. Price, I think one of the 
items of discussion is how this proposal changes the balance 
between the executive and legislative branch. What powers in 
practice do you see as being transferred to the executive 
branch if this is--if this becomes the way that we do our 
budgets?
    Mr. Price. Legally no direct transfer of powers would 
occur. Practically and politically, I believe that relaxing on 
that second year of scrutiny and oversight and moving to more 
and more appropriations bills that are removed from the 
subcommittee level and jacked up to leadership would enhance 
the power of the party leaders in this institution and probably 
also increases the incoming fire from the partisan warfare 
outside to the appropriations process, neither of which is a 
desired result. That has already gone farther than it should. 
And, to the extent that occurs, it also, of course, brings in 
the White House, whoever the President is.
    The trend toward omnibus bills, of course, does some of 
this, and we need to return to regular order. Again, I give 
Chairman Rogers and Ranking Member Dicks a lot of credit for 
the extent to which we did that this year. Omnibus bills do 
this, certainly supplementals do, and certainly the kind of 
corrections that the agencies ask for in terms of reprogramming 
funds. All involve much more party leadership up here and much 
more White House involvement from downtown.
    Mr. Polis. Thank you. A question for Mr. Whitfield. You 
mentioned that something is broken about the system. I think, 
you know, with the statistics you indicated about the relative 
rarity of a budget ever being agreed to, I think we all agree 
that the system needs to be improved. But it seems to me that, 
you know, what is being discussed here today is saying, well, 
let's parade our failure less often in front of the American 
public. I think you mentioned that perhaps the yearly failure 
kind of feeds into the perception of the American public that 
Congress is dysfunctional. To show our failure off half as 
often, you argued, could potentially help improve the 
reputation of this body to get things done.
    Isn't it more important, though, to actually enact reforms 
that lead to a more successful outcome? Whether that is an 
annual or biennial success, isn't that more successful? And do 
you see this proposal as leading to a more successful outcome 
or just parading our failure less often in front of the 
American public?
    Mr. Whitfield. I see this proposal as leading us to being 
more able to complete our work. I don't view it as displaying 
our failures less often. I genuinely believe that this reform 
would significantly improve the product of the U.S. Congress 
both substantively as well as on the appropriation budget's 
size.
    I have had a lot of discussions with people at CBO as well 
as OMB. And Mr. Price is right; every President in recent 
memory supported this proposition, because in my discussions 
with OMB, they are talking about how they are so inundated each 
year with the appropriation process that they are just swamped, 
and if they could do it over 2 years, recognizing sometimes you 
have emergencies you have to intervene with, that I just feel 
it would free up the Congress. We wouldn't be clogged up every 
year with this race to finish the job. So I genuinely believe 
it would improve the product of the Congress.
    Mr. Polis. Thank you. Mr. Chairman, I would also ask, as is 
customary, that we keep the record open for 24 hours to allow 
Mr. Hastings to submit a statement.
    The Chairman. Without objection, we will hold the record 
open. I thank the gentleman.
    [The statement of Mr. Hastings follows:]
Prepared Statement of the Honorable Alcee L. Hastings, a Member of the 
                           Committee on Rules

    Chairman Sessions, on January 24, 2012, Rules Chairman David Dreier 
noted during a Legislative and Budget Process Subcommittee Hearing, 
that I was ``enthusiastic'' about his bill H.R. 114, the Biennial 
Budgeting and Appropriations Act of 2011.
    While I am certainly not opposed to Congress debating the merits of 
biennial budgeting, and do not believe that biennial budgeting is 
necessarily a bad idea, I do think that its disadvantages outweigh its 
advantages, and that it ultimately will not work with a budget as 
complex and as fraught with partisanship as ours.
    Furthermore, I would beg to differ with my colleague from 
California's assessment of my ``so called'' enthusiasm for his 
legislation--I am not even a co-sponsor of his bill. During the recent 
subcommittee hearing, he made that assertion and I would like the 
record to reflect his enthusiasm for his own bill is not shared by me.
    Mr. Chairman, I also do not see how we can completely transform the 
federal budget process in this manner without first trying out a few 
test cases. If we are really serious about biennial budgeting, we ought 
to identify a few federal programs we can test this out on for a few 
budget cycles, before imposing it on the entire federal structure.
    The problem with our annual budget and appropriations debates is 
not the timeline, but rather the political leadership. Smoothing out a 
few procedures here and there is not going to magically make our budget 
debates any easier.
    I suspect there is a correlation between interest in biennial 
budgeting and the level of partisanship here in the House.
    If this body really wanted to, we could agree on a budget in one 
day. Or even in one week. But the budget is an intensely political 
process and that's not going to change if we do it every year or every 
other year. And even in the ``off' years, we would still be required to 
make necessary changes, consider supplemental spending, and argue over 
authorizations and other revisions.
    If Republicans were truly committed to working with Democrats and 
the President to ensure a smooth budget process, they would do so. 
Rather than tying our hands in convoluted budgetary procedures.
    If ensuring a smooth process means that Republicans are not going 
to try to eliminate Medicare, or pass tax cuts for the wealthiest 
Americans, or threaten to default on our national debt, then by all 
means let's pass these reform bills.
    But we all know the reality of the situation and that is, nothing 
is going to happen. Making the federal budget biennial will not stop 
the political debates, will not reduce our workload, and will 
ultimately result in a huge transfer of power to the Executive Branch, 
which by necessity will have greater leeway with the purse strings.
    We ought to be about the business of finding ways in the federal 
budget to create jobs, to support struggling Americans, and to ensure 
that we are not leaving those with the least in these difficult times 
to fend for themselves.
    In 1940, 44 states practiced biennial budgeting. This number is 
down to 19. It is clear that so many states have abandoned biennial 
budgeting over the last decade; you cannot responsibly implement a 
meaningful budget two to three years in advance.
    In closing, I believe that this budget process gimmickry isn't 
going to make the Republican Party any more willing to work with 
Democrats and the President on these matters. And therefore, I find 
this process completely futile.

    Mr. Young. Mr. Chairman, I would like to just add one quick 
word. I don't want to parade our failures. That is not what I 
am about. I want to prevent our failures. I want to get the job 
done. And that is what I think we were all sent here to do. So 
parading failures, unless you just want to run against Congress 
and say, gee, look how bad they are, I don't do that and I 
don't think it is really good politics to do that, but some 
people do it. We want to prevent the failures, and to do that 
we have to work together.
    This is not a political thing. This is not a partisan 
issue. I don't have any political interest in how we do this. I 
am just thinking of a way to get the job done more efficiently 
for the Congress, but also for the agencies that we appropriate 
for and especially, in my case, the Department of Defense. That 
is one place we just don't want a lot of inefficiencies and 
make a lot of mistakes.
    The Chairman. Mr. Chairman, I am going to give my comments 
in just a minute, but I think I read your text, and those were 
just words as opposed to writing them down. But I completely 
agree with you, and that is once again why we are here and 
perhaps why a man with insight who aims at trying to make it a 
better process, we are glad you are here.
    I would like to recognize, if I can at this time, the 
gentleman Mr. Dreier, the chairman of the Rules Committee.
    Mr. Dreier. Thank you very much, Mr. Chairman, and let me 
first say that I look forward to reading Mr. Hastings' 
statement that he as the ranking member of this subcommittee 
will submit for the record. And if I exaggerated his level of 
enthusiasm and support, I was under the impression that he was 
supportive. But I think that Mr. Young makes a very important 
point. I do know that Peter DeFazio and Lloyd Doggett and lots 
of Democrats are very, very, very enthusiastic supporters of 
this notion. Again, not believing it is a panacea, and again I 
think we need to soberly look at this, but I do believe that it 
does--it is something that is more than worthy of exploration, 
and that is why I appreciate the leadership of this 
subcommittee pursuing this with the kind of enthusiasm that you 
have.
    I think that one of the things that led me to introduce 
this beyond the inspiration that I got from Bill Young and 
Ralph Regula, Ed Whitfield, and so many others has been the 
fact that there is a potential for us to bring about great 
savings. And I think it gets to what Mr. Whitfield just raised 
on this OMB question. I looked at some numbers here last night 
as I was perusing this. According to CBO in fiscal year 2010, 
Congress appropriated $290.8 billion for 250 expired laws, laws 
that weren't even on the books. And I think that that just 
underscores the imperative for this kind of oversight.
    And it is interesting as I listen to the two appropriators 
at the table, Mr. Price and Mr. Young, who share the same goal, 
but obviously, I mean, Mr. Price believes that if we don't do 
this annually that we undermine the ability for oversight; Mr. 
Young believes that if we could do this on a biennial way, we 
have more time and opportunity for oversight. And, you know, I, 
like Mr. Price, am a proud institutionalist, and I do think 
that there is a valid point to look at this Presidential 
support and the struggle between the two branches of 
government. I think that is a very, very fair and important 
question to raise.
    And I used in my opening remarks the sword of Damocles does 
in fact--you know, in Madison's power over the purse, which is 
the wording that they used, is that undermined? I mean, I have 
just come to the conclusion that the executive branch knows 
that we do have that power, and the fact that we would expend 
that year engaging in even greater scrutiny is something that I 
think in and of itself poses a situation which would create 
even greater concern and necessity for them to respond to the 
oversight questions that are raised.
    Now, Mr. Price said that this was not an issue of process, 
Mr. Chairman; it had to do with the will, our will. And one of 
the things that I found when I first introduced this, again, 
nearly a decade and a half ago, was that virtually everybody 
acknowledged the 1974 Budget Impoundment Act has been a 
failure. And I would just like to ask Mr. Price if in fact he 
believes that there need to be changes to the 1974 Budget and 
Impoundment Act?
    You know, one could infer from the testimony by saying that 
this is not about process, but rather our will, one could infer 
that you believe that we don't need to make changes. And what I 
am trying to do is I am trying to explore and look at ways in 
which we can do this.
    Mr. Whitfield correctly pointed out that only in 3 years 
since the establishment of it, have we gone through and 
completed the process without continuing resolutions to keep 
the government open. So I guess I would ask the question that 
frankly most of my colleagues, Democrat and Republican alike, 
have said to me that the system is broken. What do you think?
    Mr. Price. I am not a huge fan of the budget process, and I 
think in many ways it does not serve us well. I believe, 
though, that the heart of the system--the heart of the power of 
the purse--remains appropriations. And, I see nothing in the 
biennial budgeting proposal that would really change the way 
appropriations is working except just to cut the process in 
half. In other words, I don't see anything here that would make 
it easier to adhere to the regular order in terms of 
subcommittee performance, the hearings, the markups, the 
reporting and passage of bills. They would still take place in 
that same 9-month time frame. There would still be--unless we 
address the political divisions and dysfunction--I think that 
biennial budgeting would be a formula for once again having the 
process collapse in the fall and having to revert to omnibus 
bills. They would just be 2-year omnibus bills, not 1-year 
omnibus bills. I don't see any way here that the basic 
difficulties that we have had would be directly addressed.
    Mr. Dreier. What about this notion of--I mean the point 
that I made, you know, $290.6 billion, over a quarter of a 
trillion dollars, appropriated for 250 programs that didn't 
even exist. It would seem to me that if you had that year, that 
if the Appropriations Committee as well as the authorizing 
committees did realize that to really--as Mr. Young has said so 
well--to really hone in on these issues and ensure that we 
very, very, very carefully expend each taxpayer dollar would 
be--I mean, I remember Ralph Regula telling me about the 
potential savings. I mean if we are talking about fiscal 
responsibility, the one that Ralph--you remember this, Bill--
used to regularly point to is energy costs. If we had the 
ability to have a 2-year process and could expend and could 
negotiate contracts over a 2-year period of time versus doing 
it annually, the savings to the taxpayer dollars would be 
tremendous.
    And so I mean you look at these kinds of things that can go 
a long way toward helping us achieve this goal, and I think 
that process-wise as well as getting to what we all share our 
concern about, the lack of fiscal responsibility that has 
emanated from this place, would be addressed.
    Mr. Price. Just a quick three-part response. First of all, 
the system does have the flexibility to allow multiyear 
budgeting in certain areas. I think it would be fine to move 
toward a more multiyear perspective with our budget 
resolutions. And, I think Mr. Young's example is a good one. In 
defense areas, with the Corporation for Public Broadcasting, 
and certain veterans areas, we have done multiyear budgeting. 
And, in those targeted instances, I think there is a lot to be 
said for that. But tour current system has the flexibility to 
permit that now without a wholesale switch to biennial 
budgeting.
    Secondly, your point about authorizations is very, very 
important. It is a scandal that hundreds of programs are 
unauthorized. But, I am not sure what conclusion we draw from 
that. Do we go to a different authorization process? In many 
ways, as Mr. Whitfield says, appropriations becomes the only 
vehicle available to fix difficulties with authorizations. And 
believe me, when that is done on appropriations bills, it is 
with the assent of the authorization leaders.
    You know, appropriations isn't just free-wheeling here and 
adding measures willy-nilly to appropriations bills. This is 
often, and usually done, in cooperation with the authorization 
leaders.
    If we are talking about what has bogged down around here, 
let's think about the Elementary and Secondary Education Act, 
let's think about the transportation authorization. Often it is 
the annual appropriations that gives us some vehicle for doing 
things we need to do on the authorization side.
    And finally, when you talk about what kind of oversight has 
clout, I can tell you that oversight has more clout when it is 
tied to funding decisions. Many, many times--I will just speak 
about the Homeland Security bill here--the way we will deal 
with problems we uncover in the hearings or in our inquiries 
into agency behavior is to tie appropriations to performance. 
We will say this money will not be released until we get a 
report on A, B, and C.
    Mr. Dreier. See, I would argue that you are not actually 
giving up that power, though, because the notion that somehow 
the Appropriations Committee is just folding is a preposterous 
one, because there still is going to be, even though it doesn't 
exist at that moment, you still have that power over the purse, 
as you correctly say, which is there. You are just saying it 
needs to be done immediately.
    And I think what Mr. Young and Mr. Whitfield and I are 
arguing is that expending more time on this oversight, while 
they know full well that they are going to have to contend with 
the question of their funding process through you down the 
road, I just--I mean you want it to be closer. We are saying 
that to have a little more leeway would actually enhance the 
final product.
    Mr. Price. Well, all I know is that we have a very full 
hearing schedule on the year that we are appropriating, which 
is every year.
    Mr. Dreier. Right.
    Mr. Price. I don't think it would be or could be much 
fuller in the off year. And in answer to your question, of 
course it makes a difference. If these agencies know that you 
are writing the bill right that minute, and that there are 
going to be some things in that bill that they care about in 
terms of conditions they have to meet, performance they have to 
display, or that money simply isn't going to be there, you bet 
that is more powerful, much more powerful than the implied 
notion that you might do something about it a year from now.
    Ms. Foxx. Would the gentleman from California yield?
    Mr. Dreier. Sure. I am happy to yield.
    Ms. Foxx. I thought about saying this even before 
Congressman Price raised the issue of the Elementary and 
Secondary Education Act, but it certainly makes it even more 
relevant. I have advocated for a long time that we could do a 
much better job of oversight of Federal expenditures. And I am 
a huge fan of accountability and having results-oriented 
projects. We could do that if we studied the Constitution a 
little more and do what Mr. Young was saying, go back to the 
Constitution and devolve to the States most of what we do in 
the Federal Government now. We would have plenty of time to do 
oversight if we weren't doing education, health care, and all 
of those things that are not mandated for the Congress to do by 
the Constitution.
    So if we want to have lots of time to do oversight and lots 
of time to have accountability, then simply get out of doing 
the things the Constitution doesn't tell us to do. And the 
Constitution does it. We have got the enumerated powers.
    And then as an added emphasis, the Founders put in the 10th 
Amendment. And they said if we didn't tell you to do it, don't 
do it. It is up to the States, it is up to the individuals.
    So, Mr. Price, I think the example you used is a perfect 
one to say to us we have no business doing this. We will never 
be able to give proper oversight as long as we are trying to 
run every aspect of everyone's lives in this country. And that 
is not what we should be doing. If we would do what the 
Constitution tells us to do, and not go beyond that, or 
extraordinarily carefully go beyond that by things that compel 
us that can't be done by the States, we would be fine in doing 
our oversight.
    Thank you, Mr. Chairman. I am sorry, I have to go away for 
another meeting, but I will return.
    The Chairman. I thank the gentlewoman.
    Mr. Dreier. Let me just reclaim my time and thank my friend 
for her thoughtful contribution. And to say, in conclusion, Mr. 
Chairman, for this very important panel, and I look forward to 
hearing our other panelists in just a few minutes, that I am--
again, I have read about the opposition and concern that has 
been raised. And I think that there are valid concerns. And Mr. 
Polis is absolutely right; this is in no way, and I said this 
repeatedly myself, a panacea. I mean we need to look at this 
very soberly.
    I am willing, I don't know that all the cosponsors of my 
legislation would go along with this, but I am more than 
willing to look at the idea of exploring something that again 
opponents of biennial budgeting have said is worth exploring, 
and that is maybe building on what Mr. Young talked about in 
his testimony, maybe having two or three Cabinet-level agencies 
of the Federal Government proceed with a 2-year process to see 
how it works. Because I know, again, I read the study from the 
National Council of State Legislatures, and at the end they go 
through a litany of those States that have gone from biennial 
to annual back to biennial, biennial back to annual, and they 
have gone back and forth, back and forth. And some have liked 
it, some haven't liked it. Some have moved just recently to 
biennial over the last several years.
    So I mean again, I think that the idea of experimenting 
with this idea that has emerged from the laboratory, as the 
framers put it, that being the States, is something that I 
would be willing to support to ensure that we address some of 
the valid concerns that Mr. Price and others have raised.
    So thank you very much for that, Mr. Chairman. Thank you 
again for having this. This is a very important panel, not that 
others aren't, but to have the wisdom of these three gray-hairs 
is something that I value and appreciate. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Dreier. I earned all the gray 
hair I have got. I too have an opinion about this, which I will 
give in 1 minute or less, I hope. And that is I believe that 
this process has given lots of good ideas. I am for 
transparency; that the American people would see benefit of 
what Congress is there and to get their job done. And I think 
we have heard the gentleman, Mr. Dreier, talk about there would 
be seen as no advantage to any party, but rather the advantage 
to the American people. I believe that they should have 
confidence in our system. This is simply an experiment. That is 
all constitutional government is. And if we dwindle down or 
take advantage of that trust that the public has put us in, 
then we in fact give away our advantage of a constitutional 
government, the ability to have people have confidence not just 
in what we do, but the outcome therein.
    When I was in business I used to have a vision statement 
and a mission statement. I haven't spent a lot of time figuring 
it out on this, but I believe the vision statement should be 
with respect to this that it be for no one's advantage or 
disadvantage; however, that the American people would have 
confidence in our work product that we could deliver on a 
timely basis. And a mission statement should be something to 
enable the government to spend the necessary and needed 
resources to run the government efficiently and to follow the 
Constitution.
    And I think that we have to transcend where we are, and 
look at perhaps in a better, brighter way, how we can fix not 
just ourselves, but also look at ourselves at the same time and 
say we are not in this for power, we are not in this for power 
against the President, we are not in this for power against any 
agency, but rather the benefit of commonsense utilization of us 
working together in at least three sides. There are Republicans 
and Democrats, and then there is just those that vote ``no'' on 
everything. And I think we have to find a way to let the 
American people know that we have accepted this job.
    All serious daring begins from within us. And that is why 
you are here. You still share the belief, I am sure, the same 
reason, Bill, when you were elected, David and Ed, and I know 
David Dreier shares this. The same spirit that brought him to 
Congress resides deep within him today to make the American 
people a little bit better.
    I want to thank each of you for your time today, and I will 
dismiss this group, this panel at this time.
    I would like to at this time welcome a second panel made up 
of two freshmen who are not only Members of Congress in the 
spirit of constitutional authority, but come, I believe, with 
the spirit of what brought them here still very alive and burns 
deeply within them.
    I would like to, if I can, to have the gentlemen come to 
the table. First, Congressman Reid Ribble is a Member of the 
House Budget Committee and sponsor of H.R. 3577, the Biennial 
Budget and Enhancement Oversight Act of 2011, who along with 
our great Budget Chairman, Paul Ryan from Wisconsin, will push 
this idea. His legislation shares many of the goals that I 
believe Mr. Dreier's bill has before us today.
    And also the gentleman, Congressman Steve Stivers, who is a 
distinguished Member of this body, is a member of the Financial 
Services Committee, a bright young voice about ideas that come 
from those back home who elected us. He is focused on debt and 
government spending in his first term, and he is a leading 
advocate for H.R. 114.
    Without objection, your prepared remarks will be submitted 
to the record. And I welcome your testimony at this time. I 
would refer first to the gentleman, Mr. Ribble.

STATEMENT OF THE HONORABLE REID J. RIBBLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Ribble. Okay. Chairman Sessions, Ranking Member Polis, 
and members of the committee, thank you for providing me the 
opportunity to testify today on my legislation, the Biennial 
Budgeting and Enhanced Oversight Act, number H.R. 3577. I 
introduced this bipartisan bill in December with Chairman Ryan, 
Chairman Jeb Hensarling, and several of my colleagues on the 
Budget Committee, including Representatives Marlin Stutzman, 
Todd Rokita, and Frank Guinta. This bill is part of the Budget 
Committee's broader process reform effort, and it currently has 
30 cosponsors.
    Before I discuss my bill, I would like to commend Chairman 
Dreier, Representative Whitfield, and Representative Timothy 
Johnson for their work on this matter and for putting forth two 
remarkable biennial budgeting bills. I am a proud cosponsor of 
both of them. The three of us have taken slightly different 
approaches with our legislation, but we all support what is 
important: moving to a biennial budgeting process in order to 
fix our broken budget system. I look forward to working with 
these two gentlemen and others on the committee to reform how 
the Federal Government spends hardworking taxpayer dollars.
    I came to Congress just over a year ago with a cynical view 
of this institution. Having spent a year here, I can report 
that my view hasn't changed much. If anything, I am even a bit 
more cynical today. It has now been 17 years since Congress 
passed all 12 of its appropriations bills under regular order. 
We continue to budget and appropriate Federal dollars through 
continuing resolutions and omnibuses, failing to allocate 
taxpayer money in a deliberate way. With our national debt over 
$15.2 trillion, we in Congress cannot afford to treat 
Americans' tax dollars with such callous disregard.
    The budget process is the perfect platform to have an 
honest discussion with the American people about our spending 
priorities. But that discussion does not happen with a broken 
budget process. To put us on the right track, the Biennial 
Budgeting and Enhanced Oversight Act will help control spending 
by ending the ad hoc budgeting process, while at the same time 
increasing oversight of how taxpayer dollars are spent.
    Under my bill, a biennial budget and all appropriations 
bills covering both years in the biennium would be passed in 
the odd-numbered years. Congress would conduct oversight and 
pass multiyear authorization bills in the even-numbered years. 
Authorization bills would cover no less than 2 years. The basis 
for my bill was the Spending Deficit and Control Act of 2009, 
as introduced by Chairmen Ryan and Hensarling. This bill 
contained a number of budget reforms, including a biennial 
budget.
    In my bill, the Biennial Budgeting and Enhanced Oversight 
Act, a timetable for the biennial budget and appropriations 
bills would follow the timetable for the Congressional Budget 
Act of 1974, with Congress being required to complete a 
concurrent budget resolution by April 15. This would give 
appropriators, I believe, the necessary time to complete their 
work.
    The budget timetable is one of the primary differences 
between my bill and Chairman Dreier's, and Representative 
Whitfield's bill, as well as Representative Johnson's bill, 
both of which will push the date back for Congress to finish 
action on the biennial budget from April 15 to May 15. Last 
year, the House passed our budget on April 15, meeting the 
required deadline. While I am sure we on the Budget Committee 
wouldn't mind having more time to do our work, I believe it is 
equally important to give the appropriators ample time to 
complete the 12 appropriations bills. By budgeting and 
appropriating in a calmer, wiser way, we could end the threat 
of government shutdowns, with which we all are too familiar.
    The Biennial Budgeting and Enhanced Oversight Act would 
help agencies and businesses to plan their future as well. A 
biennial budget will allow agencies to plan for multiyear 
programs and projects, reducing procurement costs. This 
approach will help businesses that work with the various 
agencies and need the certainty that comes from a stable budget 
environment. The Federal Government has become adept at 
creating uncertainty for businesses over the years, and this 
needs to stop.
    Prior to coming to Congress, I owned my own roofing company 
for over 30 years. While I owned my small business, I crafted 
3-year budgets because I needed to plan for the future. By 
doing this, I was able to buy goods in an orderly manner and 
reduce costs. I would have had a difficult time succeeding had 
I not taken the time to project what my costs would be in the 
coming months and years and then plan accordingly. If I had run 
my business the way the Federal Government spends money, 
stumbling from budget to budget, the uncertainty would have 
decimated my company. This is why I decided to introduce the 
Biennial Budgeting and Enhanced Oversight Act, to try to bring 
commonsense budgeting practices to Congress.
    I thank you once again for inviting me to testify at this 
hearing today. I look forward to working with members on the 
committee on this very important issue, and I will be happy to 
answer any questions you have.
    The Chairman. I appreciate the gentleman from Green Bay 
being here this morning and lending his private sector 
experience to his job and performance in Congress. I want to 
thank you very much.
    [The statement of Mr. Ribble follows:]
        Prepared Statement of Congressman Reid J. Ribble (WI-08)

    Chairman Sessions, Ranking Member Hastings, and Members of the 
Committee, thank you for providing me with the opportunity to testify 
today on my legislation, the Biennial Budgeting and Enhanced Oversight 
Act, numbered H.R. 3577. I introduced this bipartisan bill in December 
with Chairman Paul Ryan, Chairman Jeb Hensarling, and several of my 
colleagues on the Budget Committee, including Representatives Marlin 
Stutzman, Todd Rokita, and Frank Guinta. This bill is part of the 
Budget Committee's broader process reform effort, and it currently has 
over 30 cosponsors.
    Before I discuss my bill, I would like to commend Chairman Dreier, 
Representative Ed Whitfield and Representative Timothy Johnson for 
their work on this matter and for putting forth two remarkable biennial 
budgeting bills. I am a proud cosponsor of both of them. The three of 
us have taken slightly different approaches with our legislation, but 
we all support what is important--moving to a biennial budgeting 
process in order to fix our broken budget system. I look forward to 
working with these two gentlemen and others on the Committee to reform 
how the federal government spends hardworking taxpayer dollars.
    I came to Congress just over a year ago with a cynical view of the 
institution. Having spent a year here, I can report that my view has 
not changed. If anything, I am even more cynical today. It has now been 
17 years since Congress passed all 12 of its appropriations bills under 
regular order. We continue to budget and appropriate federal dollars 
through continuing resolutions and omnibuses, failing to allocate 
taxpayer money in a deliberate way. With our national debt over $15.2 
trillion, we in Congress cannot afford to treat Americans' tax dollars 
with such callous disregard.
    The budget process is the perfect platform to have an honest 
discussion with the American people about our spending priorities, but 
that discussion does not happen with a broken budget process. To put us 
on the right track, the Biennial Budgeting and Enhanced Oversight Act 
will help control spending by ending the ad-hoc budgeting process, 
while at the same time increasing oversight of how taxpayer dollars are 
spent. Under my bill, a biennial budget and all appropriation bills, 
covering both years in the biennium, would be passed in the odd-
numbered years. Congress would conduct oversight and pass multi-year 
authorization bills in the even-numbered years. Authorization bills 
would cover no less than two years.
    The basis for my bill was the Spending, Deficit, and Control Act of 
2009 as introduced by Chairmen Ryan and Hensarling. This bill contained 
a number of budget reforms, including moving to a biennial budget. 
Under my bill, the Biennial Budgeting and Enhanced Oversight Act, the 
timetable for the biannual budget and appropriation bills would follow 
the timetable in the Congressional Budget Act of 1974, with Congress 
being required to complete a concurrent budget resolution by April 15. 
This would give appropriators, I believe, the necessary time to 
complete all of their work.
    The budget timetable is one of the primary differences between my 
bill and Chairman Dreier's and Representative's Whitfield's bill and 
Representative Johnson's bills, both of which push back the date for 
Congress to finish action on the biennial budget from April 15 to May 
15. Last year, the House passed our budget on April 15, meeting the 
required deadline. While I'm sure we on the Budget Committee would not 
mind having more time to work, I believe it is equally important to 
give the appropriators ample time to complete the 12 appropriations 
bills. By budgeting and appropriating in a calmer, wiser way, we could 
end the threat of government shutdowns, with which we all are all too 
familiar.
    The Biennial Budgeting and Enhanced Oversight Act would help 
agencies and businesses to plan for their future as well. A biennial 
budget will allow agencies to plan for multi-year programs and 
projects, reducing procurement costs. This approach will help 
businesses that work with various agencies and need the certainty that 
comes from a stable budget environment. The federal government has 
become adept at creating uncertainty for businesses over the years, and 
this needs to stop.
    Prior to coming to Congress, I owned my own roofing company for 
over 30 years. While I owned my small business, I crafted three year 
budgets because I needed to plan for the future. By doing this, I was 
able to buy goods in an orderly manner, reducing my costs. I would have 
had a difficult time succeeding had I not taken the time to project 
what my costs would be in the coming months and years and then planned 
accordingly. If I had run my roofing company the way the federal 
government spends money, stumbling from budget to budget, the 
uncertainty would have decimated my company. This is why I decided to 
introduce the Biennial Budgeting and Enhanced Oversight Act, to try to 
bring common-sense budgeting practices to Congress.
    I thank you once again for inviting me to testify at this hearing 
today. I look forward to working with Members on this Committee on this 
important issue, and I will be happy to answer any questions you may 
have.

    The Chairman. Mr. Stivers.

 STATEMENT OF THE HONORABLE STEVE STIVERS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Stivers. Thank you, Mr. Chairman. I would like to thank 
Chairman Sessions and Ranking Member Polis for allowing me to 
testify. I would also like to thank Chairman Dreier and 
Representative Whitfield for their work on H.R. 114, and 
Representative Ribble for his work on H.R. 3577. I am a 
cosponsor of both bills.
    Just as a matter of background, before I came to Congress I 
was a State senator for 6 years in Ohio, where we have a 
biennial budget. I was vice chair of the Finance Committee in 
Ohio, which has the same jurisdiction as the Budget Committee 
and the Appropriations Committee rolled into one in Ohio. So I 
have some background working with biennial budgets. And I can 
tell you from a perspective as somebody who has done it in a 
State that is fairly large and complex with a $50 billion 2-
year biennial budget, it can be done, and there are advantages.
    And I have looked at some of the background from some of 
the folks who oppose this as well. And they talk about some of 
the planning and other problems. I did not experience any of 
those. I did experience that it worked. Ohio balanced its 
budget. Ohio made tough choices.
    You know our current budget process here in Washington is 
broken. And I think that is evidenced by the fact that we 
haven't had a budget for a thousand days. We have been 
operating under continuing resolutions for multiple years. And 
the last time that the budget process worked as it was 
scheduled to was fiscal year 1997. So just as a way of looking 
back, that was 15 years ago, and I was 31 years old at the 
time. All of us were a lot younger back then. But that is a 
long time for the process not to work.
    Even before I came to Congress, I advocated for a biennial 
budget. And I think that the bill that Chairman Dreier and 
Representative Whitfield sponsored would fix the process, 
although not be a panacea.
    As I said, in Ohio we have a biennial budget. Nineteen 
States have biennial budgets, including Ohio and Texas, that 
are fairly large and complex. You know, in the first year of 
that biennial budget, Ohio passes the budget. In the second 
year, the Finance Committee focuses on oversight. There usually 
is a budget corrections bill which we would probably call a 
supplemental here. But in fact, it does give the Finance 
Committee in Ohio time to do the oversight of the important 
State agencies. And that would happen here at the Federal 
Government as well. And, you know, just like at the Federal 
Government, that State budget is broken into two separate 
annual budgets, but we passed the biennial budget and it works. 
I think it has created sound fiscal policy in Ohio, and it has 
worked for decades.
    It does decrease the opportunity for politics to override 
policy decisions, in my opinion. And I think H.R. 114 and 3577 
lay out that fiscally sound path. I don't think it would shift 
power between the administration and the Congress.
    I would love to address Congressman Polis' question, if he 
gets a chance to ask it again. And I think if we look at the 
record of Congress as an institution since the Budget Act of 
1974, Congress has only met its responsibility under the Budget 
Act 17 percent of the time. And so I don't think that we could 
make it much worse than it is today.
    You know, I did think it was interesting, Chairman Dreier 
talked about maybe a hybrid system for a little while to put 
them next to each other. I think that would be an interesting 
thing. And I think there is nothing wrong with trying some new 
things. When you are succeeding 17 percent of the time, in any 
other business that would not be good. In the business of 
government, unfortunately, we put up with it far too long. But 
I am glad to hear that there are a lot of people really looking 
at it.
    I do think that biennial budgeting does lead to business 
savvy, just as Representative Ribble talked about, because you 
can lock in longer term contracts. I know that that was 
discussed on the previous panel, too. And I think that gets 
better deals for taxpayers in the long run. It does require 
looking ahead a little further. I know the biennial budget 
group talked about they were concerned that you would have to 
look ahead 30 months. Well, I would be concerned about any 
entity that can't look forward 30 months.
    And will it be perfect? No. In the budget projections that 
we have in Ohio in our experience are not perfect, but they 
work, and at the end of the biennium we balance the budget. So 
it does require some work in the second year, but, you know, I 
don't think the appropriators would have a problem with working 
in the second year. They are doing it now, and I think we can 
make that work.
    You know, the other thing that some people bring up is, you 
know, there might be a loss of ability to respond to natural 
disasters, national security, or other events. There is nothing 
in a biennial budget that prevents supplemental or budget 
correction bills, just like we do today. I don't think they are 
any more prevalent than they would be in an annual 
appropriations process.
    And of course let's again bring out that the annual 
appropriations process is broken. We end up with continuing 
resolutions more often than not, where we don't actually set 
the budget priorities, but we just continue on the spending 
decisions of previous Congresses. And I don't think that is 
good for the people or our Republic. So while I don't think 
biennial budgeting is a panacea, I do think it is a step in the 
right direction, and I think it can give us another tool in the 
toolbox that will work. It has worked in the States, including 
my home State of Ohio, where I have experience. And I hope we 
will continue to look at it in some form or another.
    And I don't claim to come here with all the answers to all 
the questions, but if we can work together I think we can find 
a process that will actually be good for our Republic, good for 
our taxpayers. And I don't think it is about not parading our 
failures in front of folks, I think it is about moving toward 
success. And that is what we should be about. And when our 
success rate is 17 percent on budgeting, successfully 
completing the required tasks in the 1974 Budget Act, that is 
nothing to brag about. And I think there are things we can do 
to fix it, and I think this is one.
    Again, I want to thank the chairman and the ranking member 
for allowing me to testify. I look forward to answering any of 
the questions that any members may have.
    [The statement of Mr. Stivers follows:]
        Prepared Statement of Congressman Steve Stivers (OH-13)

    I would like to thank Chairman Pete Sessions (R-TX) and Ranking 
Member Jared Polis (D-CO) for holding this hearing on biennial 
budgeting today, and appreciate this discussion on ways we can make the 
Federal government fiscally sound. Additionally, I would like to thank 
Chairman David Dreier (R-CA) and Representative Ed Whitfield (R-KY) for 
their leadership on H.R. 114, the Biennial Budgeting and Appropriations 
Act of 2011.
    Since coming to Congress last year, I have been working with 
Chairman Dreier and Representative Whitfield to reform our budget 
process and explain the merits of biennial budgeting and how this 
reform would improve the current Congressional budget process.
    The current budget process is completely broken. As you may know, 
today marks 1,000 days since the Senate has passed a budget. This 
failure and Congress' inability to pass appropriations legislation in 
regular order shows that the Congressional budget process needs reform. 
Fiscal Year 1997 was the last year Congress passed appropriations in 
regular order.
    Before coming to Congress, I advocated for a biennial budget. As an 
Ohio State Senator and Vice Chair of the Finance Committee, I had time 
to extensively review the state budget given the two-year budget cycle. 
Ohio is one of 19 states that operate on a biennial budget, and Texas 
and Ohio are two examples of large states with complex budgets that use 
biennial budgeting.
    In Ohio, the biennium begins on July 1 of odd-numbered years and 
ends 24 months later on June 30. Within a biennium are two separate 
fiscal years, each beginning on July 1 and ending on June 30. This two-
year budget process in Ohio has allowed for long-term planning of state 
programs and has decreased opportunities for politics to override sound 
fiscal policy decisions.
    In the current budget process, Congress has only met its 
responsibility to pass appropriations in a regular order 17 percent of 
the time--17 percent is simply not good enough. Under H.R. 114, 
Congress would be spending the second session of Congress reviewing 
expired laws, and conducting aggressive oversight of federal programs 
to ensure taxpayer dollars are spent efficiently and effectively.
    Biennial budgeting is also business savvy, as it allows the federal 
government to procure contracts with private companies and venders in 
two-year increments potentially increasing the federal government's 
ability to lock in the best deal for the taxpayer.
    I also want to point out that when Congress needs to act in 
response to a natural disaster, national security threat or war, H.R. 
114 also includes provisions that will allow Congress to act swiftly.
    Mr. Chairman, I believe the Ohio experience with the two-year 
budget has been successful, and a biennial budget at the federal level 
would be a useful tool in our continued efforts to cut wasteful 
government spending. Biennial budgeting is not a panacea, but it is a 
step in the right direction. Again, I thank the Chairman for this 
dialogue as we work to improve the federal budget process.

    The Chairman. Your voices, strong as they are today, it is 
my hope that you will not have to look back 10 or 12 or 15 
years, as our previous panel did, and say I gave testimony 15 
or 17 years ago about this idea. I think your ideas are very 
appropriate for today. And so keep your words today, and let's 
see if we can move this idea along.
    Mr. Dreier.
    Mr. Dreier. Thank you very much, Mr. Chairman. And let me 
just express my appreciation to Messrs. Ribble and Stivers, 
both of whom as new Members bring a very important perspective. 
The perspective of the private sector that you bring, Mr. 
Ribble, is an important one. And as a senator in that 
laboratory of ideas, as I mentioned earlier, as the Framers put 
it, of a State that has taken this issue on and done so with a 
great deal of success is something that I hope we can learn 
from here. I would like to think that the legislation that we 
put together does allow us to do that, and I appreciate your 
support for the idea of our doing what opponents to biennial 
budgeting have said we ought to explore, and that is the notion 
of taking some incremental steps on the road towards laying the 
groundwork to see if in fact it is successful. And some of the 
questions that are out there that I recognize are more than 
valid can be addressed in some ways.
    So I just again thank you both for being enthusiastic, 
hardworking, diligent champions of the goal that we all in a 
bipartisan way share, and that is to make this institution more 
responsive and representative to the will of the people to get 
our fiscal House in order, and to do the right thing on behalf 
of the people whom we represent. So thank you very much.
    Mr. Stivers. And Mr. Price did mention earlier that we do 
that in some cases now on multiyear budgeting. We need to do a 
better job of doing that I think. And I believe it would work 
everywhere. But if we want to look a few places to start and 
then compare to see the 2-year process versus the 1-year 
process, I think that is a great first step.
    Mr. Dreier. Great. Great. Thanks. Thank you, Mr. Chairman.
    The Chairman. Good point. Thank you, Mr. Chairman.
    Mr. Polis.
    Mr. Polis. Yes, just a brief statement. I know that Mr. 
Ribble mentioned that his roofing company had 3-year budgets. 
And in my private sector experience in the technology sector 
and startups, 1-year budgeting is more the norm. Those are 
early stage growth start-up companies. Obviously, when you have 
larger enterprises that are more predictable, you can move to 
multiyear budgeting.
    But there is no--just as we have in the public sector 
between the States, some States that have 1-year and some that 
have 2-year, I think in the private sector as well, you find a 
wide array of different kinds of companies. And it usually 
makes sense to come up with what best suits that company.
    So it is really a discussion for what best suits the 
Federal Government. And certainly we all agree it is better to 
succeed in the process, whether you do it annually or 
biennially. But it has been very informative to hear some of 
the merits of doing it biennally. I yield back.
    The Chairman. Thank you very much. I want to thank both of 
you for not only sharing your ideas, but taking your time in a 
very busy day that I know today represents, with the President 
of the United States will be before the United States Congress, 
a joint session of Congress and the American people to talk 
about his priorities for the new year. And perhaps none are 
more important than the budget which the President and this 
Congress do present to the American people, which lay out the 
responsibilities of government to produce things for the 
American people.
    I want to thank both of you for being here today. I think 
you have been value added, and I appreciate you taking time do 
this. This panel is now excused.
    Mr. Stivers. Mr. Chairman, is there any chance I could 
respond to something that Mr. Price said earlier about Homeland 
Security in the context that Mr. Polis talked about?
    The Chairman. I would welcome the gentleman's comment.
    Mr. Stivers. He did talk about when they stood up the 
Homeland Security Department, how important it was for some of 
that give and take early on.
    Mr. Polis just referred to when he started up--was it Green 
Mountain Greetings or whatever, I apologize.
    Mr. Polis. Blue Mountain.
    Mr. Stivers. Blue Mountain Greetings, I am sorry, wrong 
color. But startups obviously do require a little more 
attention. And annual appropriations on things like Homeland 
Security that we are just starting up, I don't have a problem 
with. But the Federal Government is a very complex, large 
organization that has multiyear budget processes in place for 
most of these departments already. So I think moving to a 
biennial budget for most of the Federal Government, you know--
the Federal Government is not really a start-up. It is hard for 
us to say that after 230 years. But I do think that most of the 
Federal Government would be fairly simple to move to a biennial 
process, although I certainly understand that there are 
opponents who think the benefits aren't there.
    But I would love to at least try to move some agencies, 
including the Defense Department, which has a lot of issues 
with appropriations for technology, and for contracts for 
building systems, moving some of those large, more complex 
departments to a multiyear, much more stable appropriations 
process, I think there would be some real value to starting 
there.
    Mr. Polis. Could I have more time for a follow-up question?
    The Chairman. Sure.
    Mr. Polis. Along those lines, aren't there times in fact 
when there are savings that can be recognized from the 
predictability? I mean when you have contracts that may or may 
not go on, and they are kind of artificially across the year, 
sometimes there are additional premiums built into work that 
others are doing for the Federal Government as a result of 1-
year budgeting? Is that an issue that you see?
    Mr. Stivers. Yes, sir. And we have seen that in the Defense 
Department a lot, and in a lot of the acquisitions processes. 
If it goes across a Federal appropriations year, then usually 
there are added costs built in because of the uncertainty. And 
in fact, it is public information, you can see that, where the 
contractors build in costs because of the uncertainty of the 
appropriations years crossing over. So I think the multiyear 
process could save some money. And that is not, again, going to 
happen in every case, but it could really save some money. So I 
appreciate the question.
    The Chairman. Perhaps for sure it would stop what the 
testimony earlier--the starting and stopping, starting and 
stopping, as Congress does its job, and with more 
predictability to the success. Good. Thank you very much. I 
want to thank both of you, and dismiss this panel at this time.
    Our third panel that we have today is from a distinguished 
group that we have tried to gather together here for this 
hearing. And I want to welcome Maya MacGuineas and Scott Lilly.
    Maya MacGuineas is president of the Committee for a 
Responsible Federal Budget, and director of the Fiscal Policy 
Program at the New America Foundation. Her areas of expertise 
include the budget, entitlements, and tax policy. Before coming 
to the New America Foundation, Maya worked as a Social Security 
adviser to the McCain Presidential campaign. Prior to that, she 
worked at the Brookings Institute, Concord Coalition, and on 
Wall Street.
    And Scott Lilly--who I welcomed earlier when he walked in 
today, Scott, welcome. Chairman Dreier and I and Mr. Polis are 
delighted that you are here also--is a senior fellow at the 
Center for American Progress who writes and researches on a 
wide range of areas, including government, Federal budgeting, 
national security, and the economy. He joined the Center in 
March of 2004, after 31 years of service to this body, the 
United States Congress. He served as a clerk and staff director 
for the House Appropriations Committee, minority staff director 
of that committee, executive director of the House Democrat 
Study Group, executive director of the Joint Economic 
Committee, and chief of staff to the gentleman who has just 
retired, the gentleman David Obey, who was a regular visitor 
here. And I know the Rules Committee is something that you have 
seen and enjoyed your experiences with us each time you would 
come before this committee. So I want to welcome both of you.
    The gentlewoman, Ms. MacGuineas, is recognized at this 
time.

  STATEMENT OF MAYA C. MacGUINEAS, PRESIDENT, COMMITTEE FOR A 
RESPONSIBLE FEDERAL BUDGET AND DIRECTOR, FISCAL POLICY PROGRAM, 
                     NEW AMERICA FOUNDATION

    Ms. MacGuineas. Thank you. Thank you for having me here 
today. I am happy to testify on biennial budgeting and 
improving the budget process overall. I am the president of the 
Committee for a Responsible Federal Budget, which is a 
bipartisan organization. And our co-chairs are former Members 
Frenzel, Stenholm, Penny, and Nussle. And we have a board of 
people who have run OMB, and CBO, and the Fed and Treasury.
    We also work on something called the Peterson-Pew 
Commission on Budget Reform, which came up with a number of 
recommendations. In the past we supported biennial budgeting, 
along with a lot of other budget reforms. Recently we have been 
focusing on how to come up with fiscal targets, filling that in 
with policy plans and triggers in order to keep the budget 
reforms in place.
    So I share the belief, as I assume many of you do, that our 
budget process certainly needs major reform, that an improved 
process can both help force and enforce improved actions, and 
that process reforms are not a silver bullet with regard to 
fixing our looming fiscal crisis. So the only way we are going 
to fix that is if we put in place a large and comprehensive 
fiscal plan which addresses our major fiscal challenges. And 
the sooner we enact such a plan, the better it would be for the 
fiscal and economic well-being of the U.S.
    But not only are our policies off track, our process is 
certainly broken and a mess. Deadlines exist in name only in 
many instances. Appropriations continuously fall behind 
schedule, leading to unwanted mini- and omnibuses. Gimmicks are 
regularly employed. And these problems only exist for the small 
portion of the budget that lawmakers annually mark up. The vast 
majority of our spending and tax policies are really on 
autopilot, leading to a system where our national priorities 
are neither fully thought out nor fully funded.
    So today's hearing is specifically on biennial budgeting, 
which we support. Biennial budgeting would give Congress 
additional time for evaluation and oversight. Fixing our fiscal 
problems will require going through our spending and tax 
policies with a fine-tooth comb and determining what works, 
what could work better, and what does not work.
    In addition to giving additional time, Congress would have 
more of an ability to conduct the type of needed oversights and 
work them into the budget process. Right now we collect an 
awful lot of information through evaluation and oversight, but 
it isn't really incorporated into the entire budget process. So 
in a time of limited resources, this will all become essential. 
And we just cannot afford wasteful spending when we are being 
forced to cut back on priority spending and increase revenues. 
A longer process would also provide more of the stability that 
we certainly need in our budgetary environments.
    We should also consider--and this is something we have 
recommended in our recent reports--multiyear budgeting, in that 
right now the country really does need a fiscal plan that will 
get us to sustainable debt levels. That is going to take 
certainly a decade, if not more, to bring us back to, say, the 
neighborhood of the mid-sixties debt to GDP, and then over time 
back to our traditional levels of below 40 percent of GDP.
    Given that so much of the purpose of putting in place a 
multiyear plan is to reassure markets, and provide economic 
stability, you need to know that any budget reforms that we put 
in place will actually stay on track. And so we want to find as 
many ways to make these reforms credible and enforceable, and 
provide the needed stability and security to the markets, to 
businesses, to households, and to policymakers.
    We also know that we are going to want to put a multiyear 
fiscal plan in place immediately, and allow many of the changes 
to phase in more gradually. So you put them in place now, you 
budget for them, but you give them time to make changes.
    So we basically, bottom line, have always supported 
biennial budgeting. We think that in many ways 2 years would 
help recognize the shortcomings.
    I am very encouraged to hear in the discussion today the 
openness of sort of trying this out in incremental or different 
ways and seeing if it works. Because I don't think anybody 
thinks this is going to be the cure-all to any of the budgetary 
problems, but it certainly has the ability to make 
improvements, particularly in the oversight area. And giving 
that a try in some areas makes an awful lot of sense to me.
    I also find something very appealing about an idea that 
does have widespread bipartisan support. And I have had the 
chance to testify in the Senate as well, and seeing how many 
Members have come on board to this idea. And I think there is 
something to be said for moving forward with things that do 
have bipartisan support in this very tough area of budget and 
fiscal reforms.
    So I would conclude by reiterating how much of our current 
budget process is really failing the American people. We have 
nearly a dozen short-term continuing resolutions, we have had 
them over the past 2 years. This is no way to inspire 
confidence in Washington's ability to effectively govern at a 
time where we so desperately do need to have confidence that we 
can. The instability doesn't even stop there. There is still no 
consensus on other budgetary matters such as expiring and 
expired tax extenders, the doc fix, the AMT, the payroll tax 
holiday, the sequester, the tax cuts. We need to find a way to 
put more stability into this process, along with the necessary 
budget improvements for the fiscal situation.
    So there is no question that when it comes to the budget 
there is an awful lot of work to be done. And I applaud the 
committee and the sponsors of this legislation for looking into 
biennial budgeting as one of those possible improvements. Thank 
you for inviting me today.
    The Chairman. Maya, thank you very much.
    [The statement of Ms. MacGuineas follows:]
              Prepared Statement of Ms. Maya C. MacGuineas

    Good morning, Mr. Chairman and members of the Committee. Thank you 
for the opportunity to testify today on the important topic of fixing 
the budget process. It is a privilege to appear before the committee.
    I am the President of the Committee for a Responsible Federal 
Budget. Our Co-Chairs are Bill Frenzel, Jim Nussle, Tim Penny and 
Charlie Stenholm, and our Board is comprised of many of the past 
Directors of the Office of Management and Budget, the Congressional 
Budget Office and the Chairs of the Federal Reserve Board and the House 
and Senate Budget Committees. I was also a member of the Peterson-Pew 
Commission on Budget Reform, which spent three years developing a 
collection of recommendations to reform the budget process, which can 
be a helpful component in overcoming our fiscal challenges. The 
Commission released a plethora of papers and two reports--Red Ink 
Rising and Getting Back in the Black that focused on the need to adopt 
multi-year budgetary targets, automatic triggers as well as many other 
budgetary reforms.
    I share a belief with many of you and other members of Congress 
that (1) our budget process needs major improvements; (2) an improved 
process can both help force and enforce better policies; and (3) 
process reform is not a silver bullet with regard to fixing our looming 
fiscal crisis, but it can help. The only way to fix that is to put in 
place a large, comprehensive fiscal plan addressing our major fiscal 
challenges, and the sooner we enact such a plan, the better it will be 
for the fiscal and economic wellbeing of the United States.
    Our budget process is just not working. Deadlines exist in name 
only; appropriations continuously fall behind schedule leading to 
unwanted mini and omnibus legislation, and gimmicks are regularly 
employed. And these problems only exist for the small portion of the 
budget that lawmakers annually mark up and decide. The vast majority of 
our spending and tax policies are on autopilot, leading to a system 
where our national priorities are neither fully thought out nor fully 
funded.
    The Committee for a Responsible Federal Budget and the Peterson-Pew 
Commission have crafted a number of budget reform recommendations, 
which we call the 3-Ts of Targets, Triggers and Transparency, which we 
believe would enhance the current budget process. Among these are:
    <bullet>  Setting a medium-term debt target and a glide path of 
annual debt and savings targets to achieve it.
    <bullet>  Using broad-based budget triggers with no programmatic 
exemptions to ensure that targets are met.
    <bullet>  Following the enactment of a deficit reduction plan to 
stabilize the debt, using additional triggers and spending and tax 
expenditure caps to keep any plan on track.
    <bullet>  Requiring the President to issue annual progress reports 
on the effects of all newly issued legislation and progress towards 
longer-term fiscal goals.
    <bullet>  Presenting new budget allocations compared to the 
previous year's levels as well as other baselines Reforming the way for 
which emergencies are budgeted.
    <bullet>  Presenting tax expenditures by area alongside other 
spending in the same categories.
    <bullet>  Increasing the level of scrutiny and oversight on tax 
expenditures.
    Today's hearing is more specifically about the budget reform known 
as biennial budgeting, a reform that the Committee for a Responsible 
Federal Budget supports. I will also spend some time speaking about an 
extension of this policy, multi-year budgeting, something the Committee 
finds particularly important right now.
    H.R. 114, the specific bill we are discussing today, would move the 
discretionary budget from an annual appropriations cycle to a two-year 
budget cycle. The most popular argument in support of such a regime 
would be the additional time Congress would now have freed up to 
conduct other business--from additional program review and evaluation 
to a more careful look at our budget and budget programs currently on 
auto-pilot. Fixing our fiscal problems will require going through our 
spending and tax policies with a fine-toothed comb and determining what 
works, what could worked better, and what does not work. If given 
additional time, Congress would have more ability to conduct this type 
of needed oversight. In a time of limited resources, this becomes 
essential--we cannot afford wasteful spending when we are being forced 
to cut back on priority spending and/or raising taxes.
    Over the years, Congress has mandated that agencies collect a 
significant amount of data to develop and track performance metrics. 
However, because of the compressed schedule and political realities, 
the budget is more and more rushed and legislators have less and less 
time to adequately use the wealth of data they receive to better align 
the nation's priorities with what programs we choose to fund and to 
remove waste and create efficiencies. Moving to a biennial system would 
give members an entire year to better conduct program evaluation and 
better set spending and tax levels. Members would then have more time 
to find under-performing or duplicative programs and eliminate or 
reform them, or even find over-performing programs and allocate 
additional funds.
    At the same time, a two-year cycle would give the executive branch 
and its agencies more time to craft their budgets. Adding an additional 
year would allow these agencies to operate on a more stable funding 
ground, preventing un-needed payments for fear of reductions in the 
following year's budget, and by allowing better longer-term planning. 
Much like how families and businesses would appreciate the stability 
added by having more certain taxing and spending policies (instead of 
the current system of short-term extensions, and the fear of looming 
tax increases and spending cuts created by the lack of a multi-year 
budget), giving additional time would add stability to executive 
planning.
    Biennial budgeting is not without its flaws, though. There are a 
number of fears that go along with this reform, not unlike any specific 
reform policy, as this is not a silver bullet. From a legislator's 
perspective, moving to a two-year cycle would mean fewer times agency 
heads would have to justify their appropriations. Thus, agencies might 
be less accountable to Congress.
    Additionally, there are real questions as to how biennial budgeting 
would work in practice-would the old annual appropriations process 
continue to exist because of a surge in supplemental appropriations 
bills? This is a real concern and it would require political will to 
prevent this from occurring. While supplemental funding bills are 
sometimes necessary due to the nature of government and the need to 
respond to emergencies or unforeseen events, creating a new budget 
cycle to see it exist in name only due to appropriators' desire to stay 
on a de-facto one year cycle would in fact only create more havoc and 
less stability. This could be avoided through more stringent 
definitions of what constitutes emergency spending and what could be 
part of a supplemental, or through other budget reforms.
    Some of the budgeting work for the next nine years has already been 
done through the passage of the discretionary caps seen in the Budget 
Control Act. There is, in fact, no need for a top line discretionary 
funding level to be agreed to legally if the caps are followed--which 
is not to say that this Congress, or future Congresses, cannot change 
these levels. Nevertheless, adoption of these levels has removed a 
large part of the annual budget work and has added another impetus to 
move away from the annual system.
    I would now like to highlight what I believe are some of the things 
that can be done with an additional year of budgeting within a two-year 
cycle.
    As intimated previously, one possible use of Congress' time in 
light of a biennial regime would be increased oversight and exploration 
of federal programs, the tax code and possible waste and inefficiencies 
all related to the budget. But beyond that, one possible thing that we 
at the Committee have long supported would be to create a budget 
concepts commission. Such a commission would look into a number of 
issues, including many of those I mentioned earlier in my remarks, such 
as better accounting, particularly for long-term spending programs, 
fiscal exposures, insurance programs, and programs that are intended to 
be pre-funded; improving the construction and use of budget baselines; 
capital budgeting and dynamic scoring issues; tax expenditures; 
accounting for private securities; leasing and public-private 
partnerships; and trust funds. As the nature of budgeting continues to 
evolve, a freestanding budget concepts commission would likely prove 
immensely beneficial.
    A second possible or additional matter Congress could address with 
additional time is a more careful review of national priorities. 
Congress could conduct a more detailed analysis of our taxing and 
spending policies and rank them versus what our national needs. This 
budget concept is known in other countries as portfolio budgeting and 
would focus on connecting the entire budget and tax programs with their 
intended objective. Time would be devoted towards ranking the programs, 
and the corresponding national priorities, to reflect what should be 
taxed and how much as each objective spending program receives. This 
would allow lawmakers more ability to have a transparent budget process 
over what the priorities are and how best to achieve them.
    Related to this would be using the off years to engage in broader 
strategic planning for the nation. As of now, we do not have a national 
fiscal roadmap and no broader strategic path. We could use this time to 
identify long, medium and short-term strategic goals, take note of 
threats and new opportunities, political and economic changes etc. This 
would help guide policymakers as they hopefully engage in a more 
thoughtful budget process and allow them to take a step back on a 
regular basis from the nuts and bolts aspects of crafting a national 
budget. Not only do we not have a strategic plan, but we seem to be 
operating in the opposite with constant short-term measures, extenders 
and a never-ending political fight.
    And finally, we could produce topical reports about the fiscal 
health of the country. Australia issues its Intergenerational Report 
every five years, which assess the implications of current policies 
over a longer time horizon and looks at the effects of demographic 
change on economic growth. Past efforts in the United States to 
integrate generational accounting have been, while technically 
challenging, extremely illuminating. A deeper dive into topics such as 
the interconnectedness between federal, state, and local budgets or 
fiscal exposures due to contingent liabilities and implicit budget 
commitments would be immensely useful in identifying, and hopefully 
avoiding, future budgetary challenges. Rising Medicaid costs, increased 
state pension liabilities and local government bankruptcies have the 
potential to impact the federal fiscal outlook-preparing for these 
events would lessen the negative consequences and all the federal 
government to better respond. Overall, there are numerous beneficial 
uses the additional time allowed would provide if the federal 
government moved to a two year cycle.
    Related to biennial budgeting, but with significantly more upside, 
would be to develop a multi-year budget--something I'd like to take 
some time to discuss. Right now the country needs a fiscal plan to get 
us to a sustainable debt level with the debt on a declining path 
relative to the economy. Such a plan will probably need to span a full 
decade, which is a reasonable amount of time to make progress on 
reducing the debt to around 65 percent of GDP--though beyond that, we 
need to continue to make changes to bring it back closer to its 
historical level of below 40 percent. Ideally, we would put such a plan 
in place immediately and allow many of the changes to phase-in more 
gradually both to allow people to adjust as needed and to allow the 
economy to continue to recover. But in order to be credible, there has 
to be a real commitment to sticking to the plan in subsequent years. So 
if such a multi-year plan is adopted as so many fiscal experts have 
recommended, the policy then should be to assume that ten-year plan 
remains in place for the decade, though with enough flexibility to make 
necessary changes along the way to account for external changes that 
arise without derailing the overall glide path to an improved fiscal 
situation. One of the purposes of putting a plan in place is to 
reassure credit markets and rating agencies, and provide families and 
businesses with the stability they need to plan, invest, and help grow 
the economy. If this plan is seen as something that can be changed 
dramatically year-to-year, it will not provide that security or 
stability.
    Therefore, the Committee for a Responsible Federal Budget has been 
focused on how to put a multi-year budget plan in place, as well as 
incorporate the necessary enforcement mechanism to keep such a plan in 
place. Besides adding the desperately needed stability, multi-year 
plans have the advantage of becoming the de-facto budget--they stay in 
place until an entirely new multi-year budget is agreed upon. As a 
result, our current practice of constantly missing deadlines, endless 
extensions, consistent fears of a government shut-down and the specter 
of a fiscal crisis, would end.
    Nevertheless, I must emphasize that while I am fully in favor of 
budget process reforms that move the process in a more positive 
direction, they are in no way a replacement for the tough budget policy 
choices that have to be made. The Joint Select Committee on Deficit 
Reduction failed in making these tough choices, and we now have a $1.2 
trillion spending trigger that is set to go off January 1st of next 
year--something some are discussing ways to turn off with no 
corresponding savings. Turning off the trigger completely would send a 
signal to markets and the American people that Washington is unwilling 
to make any tough choices--it might even risk another downgrade. Even 
with savings equal to the trigger, though, that will be insufficient to 
prevent debt from continuing to rise as share of the economy this 
decade, and particularly insufficient to stabilize long-term debt based 
on our current trajectory. We need to focus on the largest problems in 
the budget, particularly entitlement spending on health care and 
retirement and an outdated and inefficient tax code, and come up with 
larger savings in order to bring the debt down to sustainable levels.
    While fixing our broken budget process would certainly help achieve 
these goals and are critical to making them stick, the actual decisions 
made on policy choices regarding what and how much spending to cut and 
what and how much revenue to raise are the only ways to actually fix 
the real problems with our budget.
    I would like to conclude by once again reiterating how much our 
current budget process is failing the American people. We have had 
nearly a dozen sort-term continuing resolutions over the past two 
years--this is no way to inspire confidence in Washington's ability to 
effectively govern or in the fiscal policies that will be in place 
going forward. This adds significant instability to the economy at a 
time when the recovery is still fragile. But the instability doesn't 
stop there. There is still no consensus on other budgetary matters, 
such as expiring and expired tax extenders, the `doc fix', the 
alternative minimum tax, the payroll tax holiday, the sequester and the 
looming 2001/2003/2010 tax cut expiration. If moving to a biennial 
system gives the added time needed to focus on important fiscal 
policies decisions, then we should move to it. Because we need a better 
process so we all can better serve the American people and also help 
our economy, we need a multi-year fiscal plan to address our fiscal 
issues.
    Relying on a more rational timeframe for budgeting is one of the 
process changes we believe will have positive results. Accordingly, 
while I would urge Congress not to focus on process as a replacement 
for policy, biennial budgeting or multi-year budgeting would be a 
useful tool in helping to deal with America's significant budgetary and 
fiscal challenges.
    Thank you again for the to testify today and to the many members of 
this Committee for your leadership on these critical issues. I look 
forward to your questions.

    The Chairman. The gentleman, Mr. Lilly, is recognized.

           STATEMENT OF SCOTT LILLY, SENIOR FELLOW, 
                  CENTER FOR AMERICAN PROGRESS

    Mr. Lilly. Thank you, Mr. Chairman, Mr. Chairman, Ranking 
Member. I guess I am going to try to build on what Dave Price 
said earlier. I find some aspects of a biennial budget 
attractive, but I find the downsides much more unattractive.
    I have got three basic points I want to make. The first is 
that biennial budgeting will not help ease gridlock. There are 
two basic things that are driving the gridlock that we have in 
this institution. I would say that there have been several 
references to the last time we passed all the appropriations 
bills on time. In 1996, Bill Livingstone was able to get an 
omnibus approps bill in at the end of September, which 
President Clinton signed in October, a couple weeks into the 
fiscal year. The only time in the last 60 years that we have 
passed all 13 bills independently and had them signed into law 
at the beginning of the fiscal year was in 1994. And I was 
clerk of the Appropriations Committee when that happened. So I 
know what kind of a struggle it is. And I also have a real 
appreciation of how important it is to give agencies the time 
to effectively obligate funds.
    But having said that, I think what makes it impossible for 
the people who run the Appropriations Committee today to meet 
that standard is the very deep ideological divide in this 
institution. You have got about half of the House and half of 
the Senate that want to significantly reduce government, and 
another half that do not. And that is not something that 
process can solve. I think biennial budgeting simply ups the 
stakes and makes compromise more difficult.
    Very often when we have had trouble moving appropriations 
bills, we agree to a shorter time frame in order to get a 
greater consensus and more time to argue, more time to resolve 
differences. There is no question in my mind that that is what 
would happen with this. A 2-year appropriation is much higher 
stakes than a 1-year appropriation. Furthermore, there is a lot 
more time to maneuver. If it is for 2 years and you end up 
arguing for the first 12 months of the 2 years, you really 
don't hit the brick wall. Repeatedly, there has been an attempt 
to move the brick walls that the legislative process faces in 
order to resolve timing differences. That almost never works 
because it is the brick wall that causes Congress to ultimately 
act. And I think that is what you face here.
    The second thing that I think, and I am amazed that this 
discussion hasn't gotten into this, the real problem with 
appropriations through the years has not been in the House at 
all. Even when the House had less ideological divisions, it has 
been the Senate that has failed to act. Time and time again, 
Chairman Young and Chairman Lewis were able to move all of the 
appropriations bills through the House in the month of June, or 
at least by the middle of July, only to have them languish for 
months and months in the Senate.
    Now, the perfect example of why that happens is the 2010 
energy and water appropriations bill. The bill passed the House 
overwhelmingly, went to the Senate with broad support, 
attempted to bring it up, there was a hold placed on it. The 
majority leader tried repeatedly to get the hold lifted. 
Finally, at the end of July, just before the August recess, 
filed cloture, was able to wait the amount of time and collect 
the number of votes to move that bill, which then passed 85 to 
7.
    Now, if you have that repeatedly you just simply can't get 
the bills through. And that is, with the leadership of both 
parties in the Senate, the problem they face. They cannot move 
legislation. This has always been possible under the Senate 
rules. But until the last decade, it was never practiced. So 
unless the Senate changes those rules--and I did a proposal 
last year for different Senate rules--no matter what the House 
does, you are going to end up languishing appropriations bills 
and not acting. And it will only be when you have finally hit 
the final end that the Senate will turn around and say, okay, 
we didn't bring these bills up, but we will agree to an omnibus 
that we put together. And I think you just have to face that 
problem.
    And I think it is destructive to reaching a solution to 
that problem to pretend like there is another problem. There 
isn't another problem. It is the failure of the Senate rules to 
allow the Senate to act in an expeditious manner.
    Now, the second thing I think is important here is we don't 
have enough information to reliably make intelligent decisions 
about spending levels this far out. Let me give you an example. 
We are going to start spring training in about 3 weeks with the 
pitchers and catchers reporting. That is about the same time 
that the budget officers start going to meet with section 
chiefs throughout the Federal Government. They are not going to 
be working on the budget that will take place or go into effect 
at the time of the World Series. They are going to be working 
on the budget that will go into effect a year from then. All 
right. Much of that money will actually not be spent until the 
end of the fiscal year, because that is the way it works. Most 
obligations of contracts or grants tend to take place in the 
last 3 months of the year. So we are talking about July, August 
and September of 2014. Nobody in this room knows what the 
unemployment rate is going to be, which programs are going to 
show up with serious management flaws in that time frame. And 
that is the time frame we are working on now. And we are 
talking about extending that another 12 months.
    I don't think that is good management. I don't think that 
the board of directors of this organization, which is the 
Congress, should give the executive branch that much latitude.
    Now, I would say the record of the States is much less 
mixed than I have heard described in this room. At the end of 
World War II, there were only four States that had annual 
budgets. In 2000, when the hearing on this legislation was 
held, I helped work on testimony, and it had risen to 29 
States. It is now 31 States that have moved from biennial to 
annual budgeting. So they recognize that they can't see that 
far in the future, that they are giving some agencies too much 
money and other agencies not enough money to provide vital 
services.
    Now, the other thing I would say about that is look at what 
has happened to the Congress in the last 10 years. The last 
time, 12 years ago, when this hearing was held, Congress was 
doing a pretty good job holding to an annual budget. In the 10 
years that preceded that hearing, we had $100 billion in 
supplemental appropriations over that period. Now, that is 
probably too much. Half of that was the Gulf War, which was 
money that was paid back into the Treasury. But even if you 
count the money that was paid back, we only had about $100 
billion, which was about 2 percent of all discretionary 
spending.
    What happened in the decade since then when we were looking 
at biennial budgeting? We went to biannual budgeting. In fact, 
you might even say we went to bimonthly budgeting. This 
committee reported 29 resolutions waiving points of order under 
the Budget Act for supplemental appropriations that amounted to 
$1 trillion in the last 10 years, about $100 billion a year, 10 
percent of discretionary spending every year.
    I don't know why anybody would be worried about when the 
budget resolution is passed, given the lack of deference that 
is given to that resolution in this body. We have just simply 
walked right past the budget resolution. We have no plan. We 
simply appropriate what we think we need, and then if we need 
more we appropriate more. That is the way we have operated. 
Part of that I think was just an abuse of process. We should 
have gotten away from that. But part of it is that an awful lot 
of these things can't be seen that far in the future.
    I worked for a long time when I was here on trying to 
improve the computer system at the FBI. On 9/11 they couldn't 
send digital photographs to their field offices. Now, we put 
millions and millions of dollars into that system, and it took 
years to get off. And it is still struggling. Those kinds of 
programs need to be looked at all the time. And they need to be 
funded on a year-to-year basis, and they need to be cut when 
they are not ready.
    Mr. Young talked about the need to give multiyear funding 
to the Defense Department. The best thing that the 
Appropriations Committee did the entire time I served on it was 
when Jerry Lewis cut the F-22 significantly. Now, it wasn't 
that we lost planes, it was we sent a warning shot to the Air 
Force: Straighten this program out or you are going to lose it. 
And we have a much better plane today because the Congress did 
that.
    Now, the third thing I want to talk about is the balance of 
powers and the role of the Congress. I think that is a much 
bigger issue today than it was 12 years ago. I think the 
Congress is really failing to play its role under the 
Constitution. And I think the deep concern that the Founding 
Fathers had that the executive branch could get away from the 
American people, and the reason they created a Congress and 
gave them this power, was very well justified and justified by 
what the executive has done over the last decade.
    And if there is one thing that I would like to leave with 
the committee it is the fact that the power of the purse is 
relatively meaningless unless the Congress knows exactly what 
the money that they are appropriating is being spent for. And 
today I do not think that is true. I am amazed at how much the 
view that the executive branch is a benevolent partner in this 
relationship. That has been my experience, and we have had nine 
Presidents since I was first an intern on Capitol Hill, and 
none of them was anxious to share information with the 
Congress. It was hard-fought all the time, (every time,) and it 
was particularly hard-fought on programs that were in trouble, 
programs where there was a disagreement between the Congress 
and the executive branch. And I think it has gotten worse, not 
better.
    I think the last administration was outrageous in their 
willingness to just absolutely deny information that the 
Congress deserved. And I wish that I could say there had been 
more improvement under this administration.
    I am doing a project with somebody outside for the Center 
for American Progress on the information available to budget 
makers both in the executive branch and the legislative branch. 
And one person, a senior staffer on the House Appropriations 
Committee, told us in the interview we did, ``I am struck with 
how little useful information the committee now gets in making 
funding decisions. We are getting more and more pages, there 
has certainly been no decrease in the number of pages, but the 
amount of useful information is really very little.'' And in 
referring to one agency said, ``It is essentially a $10 billion 
black box.''
    Now, if we have that problem with year-to-year annual 
appropriations, I think that problem is going to get a lot 
worse. Think about the schedule that you are going to have. A 
Member gets elected in November. He comes here in January to be 
sworn in. In February he gets the President's budget. In March 
and April he has got an opportunity to comment to the 
Appropriations Committee. In June he votes on the budget and he 
is done. Why does anybody in the executive branch need to call 
him after that?
    A lot of these people, these agency heads that you are 
talking about, they are going to be gone by the time you get 
reelected. And you know, my experience is they are not very 
cooperative at all, even when they know that you have a chance 
to go after them. The fact that we haven't been going after 
them often enough means--is the reason that it has gotten 
worse, in my judgment.
    So I think that there are many areas of reform that we need 
to look at. The system clearly is not working the way any of us 
would want to, but I don't think the biennial budget is the 
road to go down. Thank you.
    The Chairman. Thank you very much.
    [The statement of Mr. Lilly follows:]
                 Prepared Statement of Mr. Scott Lilly

    There are some of us on both sides of the biennial budgeting issue 
who feel that this is exactly what Yogi Berra meant when he said, 
``Deja vu all over again.'' It seems that this committee has been 
having hearings on this issue since I was a young Hill staffer and 
Abraham Lincoln was president. Twelve years ago I worked on testimony 
for my former boss, David Obey, for a hearing on a very similar bill 
introduced by the gentleman from California who chaired this committee 
then as he does today.
    Obey argued that state governments were turning away from biennial 
budgets because the long time horizon required in a biennial budget led 
to faulty decisions about funding levels leading to excessive 
appropriations in some instances and loss of needed services in others. 
He pointed out that only four states used annual budgets at the end of 
World War II but that number had grown to 29 by 2000. Today it has 
grown to 31.
The move to biannual budgeting
    The biggest change that has taken place in the time frame for 
budgeting has been at the federal level. In the decade prior to the 
2000 hearing, Congress had been fairly successful in sticking with 
annual budgets. During that entire decade less than $100 billion was 
provided in spending outside the regular appropriation bills. More than 
half of that was funding for the First Gulf War, and that money was 
repaid to the Treasury through contributions from other countries. But 
even counting the money that was repaid as supplemental spending, 
average annual discretionary spending outside of regular appropriation 
measures was less than $10 billion per year, or about 2 percent of 
total discretionary.
    Since the 2000 hearings on biennial budgeting, we have shifted 
dramatically away from annual budgets--but toward biannual or one might 
even argue bimonthly budgeting. In the decade following those hearings, 
this committee reported 29 resolutions waiving budget act points of 
order on supplemental appropriations totaling more than $1 trillion. On 
average, supplementals have accounted for about $100 billion a year in 
spending above the amount permitted by budget resolutions of that 
period or a little more than 10 percent of discretionary.
    That has had a profound effect on our government. We in effect have 
not had a budget process. We agree to not spend above a certain level 
until we decide to spend more.
Anticipating resource needs too far into the future
    The experience of the past decade also makes it clear that it is 
difficult to anticipate needs even within the current annual time 
horizon for budgeting.
    In about three weeks pitchers and catchers will start reporting for 
spring training to get ready for the 2012 Major League Baseball season. 
At about the same time, federal budget officers across the government 
will start putting together the president's annual budget request--not 
for the fiscal year that begins at the end of this baseball season but 
a full year after that. Since much of the grant and contract money will 
be obligated at the end of that fiscal year--which will be August and 
September of 2014--there will be a 33-month time lag between the 
beginning of the current budget process and the much of the spending 
that it will facilitate. Biennial budgeting will add 12 months to that 
timeframe and simply speaking, nobody's crystal ball is that good.
    Nobody in this room really knows what employment in this country 
will be like in the summer of 2015 or what types of security threats we 
will face, or how much the management of troubled programs will be 
improved or diminished, or how much revenue the Treasury is likely to 
collect.
    It denies the Congress, and indeed the American people, the 
opportunity to move resources to emerging priorities, and, equally 
important, it denies the opportunity to cut funding in a timely way for 
programs that are underperforming or are no longer relevant to the 
problems we face as a nation.
Protecting checks and balances
    Another point that was made in the 2000 Obey testimony was 
important then but it is much more important today: the impact that 
biennial budgeting has on the ability of Congress to play its role as a 
coequal branch of government.
    The founding fathers would be incredulous at what now stands on the 
banks of the Potomac, the seat of a government of more than 300 million 
people--nearly 80 times the population represented by the delegates of 
the Constitutional Convention. The real per-capita GDP of those 300 
million is about 40 times that of the 4 million Americans who lived in 
the colonies at the signing of the Constitution. The government of this 
country now both facilitates and regulates commercial activity that is 
more than 3,000 times greater than it was in the beginning.
    Those who gathered in Philadelphia had two central concerns. First, 
that we create an executive vested with the power that would make it 
capable of governing a country as large as the 13 colonies and, of 
equal importance, that such a government would not become so powerful 
that the American people would lose control over it. That is why you 
people (members of Congress) occupy this building. You were created to 
be a check on the misuse and abuse of power by the executive. And to 
the extent that was an issue in 1789, it is an issue that is about 
3,000 times bigger today.
    The founding fathers gave Congress certain tools that they hoped 
would counterbalance the authorities granted to the executive or, if 
you will, would make Congress an even match for the president. The most 
fundamental of those tools was the power of the purse.
    What we are discussing today is a very fundamental change in the 
way Congress is able to use that power. It deserves thorough and 
serious deliberation.
    If I could leave you with only one point to consider today, it 
would be that the power of the purse is meaningless if Congress does 
not understand how the money the executive branch is requesting is 
likely to be spent, and getting that information is never easy. Today 
it is harder than ever. We have had nine presidents since I first 
worked as an intern in the House of Representatives, and not one of 
them was anxious to share his plans or explain his programs. But based 
on research I have been doing over the past two years, I am convinced 
the quality of information Congress gets has deteriorated 
significantly. Some presidents have gone to extraordinary links to keep 
Congress in the dark, and I would single out the previous 
administration in that regard. At the same time it is often more 
difficult to get good information because the agencies themselves don't 
have the facts necessary for good management or decisions about 
resource allocation.
    Among the dozens of budget professionals in both the legislative 
and executive branch that my colleague and I spoke with on this matter 
in recent years, a House Appropriations staffer made the point 
succinctly:

          I am struck by how little useful information the committee 
        now gets in making funding decisions. We are getting more and 
        more pages. There has certainly been no decrease in the number 
        of pages. But the amount of useful information is really very 
        little.

    Referring to one agency he had responsibility over he said, ``It is 
essentially a $10 billion black box.''
    Among those we interviewed we found a clear consensus that the 
quality of information now being used in decisions about resource 
allocation has deteriorated, and in certain agencies even that is not 
available to Congress.
    But the founding fathers expected presidents to overreach. That is 
why they gave Congress the extraordinary powers that are guaranteed in 
the Constitution. But only Congress can assert those powers. It is the 
fault of Congress that so much of the federal budget flows into 
accounts that are poorly understood and go to programs that lack clear 
goals and clear records of performance. It is the fault of Congress 
that far less relevant information is contained in the annual budget 
justifications submitted by executive agencies today than was true in 
the past.
    If Congress has allowed its authority to demand the truth to slip 
away under a system of annual budgeting, I ask you to speculate on what 
would happen if agency heads walked away in October of odd-numbered 
years with all the money they need for the next 24 months, as is 
proposed by the legislation before this committee? Let's think about 
that schedule for a minute. A member is elected to represent his 
district in November; sworn in as a member of the House in January; 
gets the president's budget requests in February; has a chance to 
testify or make recommendations to the appropriations committee in 
March and April; and in June votes on all 12 appropriation bills. That 
is it. He or she is done for the Congress. Why would an agency head 
return a phone call? There will be 20 months before the next budget is 
submitted, and a member of Congress will have to get re-elected before 
the White House or any agency will likely need anything a member of 
Congress--or a committee of Congress, for that matter--can offer.
    While Congress may be free to hold hearings during that period, 
what is the stick going to be for agencies that don't cooperate? As 
former Congressional Budget Office Director June O'Neill testified 
before this committee some years ago, ``Congressional oversight that is 
divorced from the purse strings may be less effective than oversight 
conducted through annual appropriations hearings linked to agency 
funding requests.'' I would go further. The most troublesome agencies 
in the federal government--those proceeding with policies and 
approaches that the Congress disagrees with--will be far less likely to 
cooperate once their biennial budget is in place with any hearing or 
oversight activity.
    Theoretically Congress could extract all of the commitments they 
need from agencies before the June deadline for voting on appropriation 
matters has past. But that time period passes in a flash. It takes the 
better part of a year to put a good oversight investigation in place 
and by that time the opportunity to insure cooperation and extract the 
penalty for noncooperation will have expired.
Need for reform
    I do not criticize this proposal because I am an old-time 
appropriator who is happy with the way things are or the way things 
used to be. There is plenty wrong with the way the system works and 
serious changes that need to be made. Appropriators need to be critics 
of the programs they oversee and not cheerleaders for those programs. 
The congressional schedule should accommodate the opportunity to have 
thorough hearings on each agency's budget request. The committee should 
have sufficient staff to fully monitor the justifications of each 
agency under its jurisdiction, and staff resources should not be 
squandered on earmark management. Oversight committees should discover 
the world of oversight--they might like it. The Senate must take steps 
necessary to ensure that expired authorizations can be brought to the 
Senate floor. CBO has just reported that of the $640 billion in 
nondefense discretionary spending in the 2012 appropriations just 
enacted, $241 billion, or 40 percent, is not authorized. My belief is 
that committees no longer charged with enacting legislation for 
programs within their jurisdiction are also no longer engaged in any 
real oversight.
    There is a lot of work to do but unfortunately, biennial budgeting 
will add to our problems, not reduce them.
Biennial budgeting will exacerbate, not relieve, gridlock
    I also want to address an argument that seems to be gaining more 
currency, an argument that I find somewhat remarkable: that two-year 
budgets will help Congress perform its work in a more expeditious and 
timely manner. Congress has two serious problems with respect to the 
timeliness of its actions on budget and appropriation measures. First, 
close to half the members of both houses of Congress favor dramatically 
smaller government and about half do not. There are not many people in 
between and in the Senate a 60 percent majority is required to break 
the deadlock. That issue will not get easier if Congress is voting on a 
two-year budget rather than a one-year budget--in fact it is likely to 
get harder and the timeframe allowed for its resolution is likely to 
grow.
    The second problem involves Senate Rules. Even when there is broad 
consensus in the Senate, it is often impossible to move appropriation 
bills. A good example was the FY 2010 Energy and Water Appropriation on 
which a ``hold'' was exercised for much of the summer of 2009. After 
the majority leader finally introduced a cloture motion, waiting the 
requisite number of days and collecting the requisite number of votes, 
the bill passed 85 to 9.
    This kind of obstruction has always been possible in the Senate but 
for most of our history it never happened. In 1994 the Senate passed a 
few appropriation bills in June and most of the rest in July. By 
September 30 we finished every conference report and delivered every 
bill as separate legislation to the president. But the old rules do not 
work with the current Senate membership. It is no longer possible for 
the Senate to consider all 12 appropriation bills--and in particular 
consider them before the beginning of the new fiscal year. They are now 
immaculately conceived in conference some months after the fiscal year 
has begun and without ever having been debated by the full Senate. 
Lengthen the fiscal year and you simply give the Senate more time to 
cogitate about when they will abandon their broken system. It would be 
far better to address the real problem.
    In 1974 the Senate agreed to an important exception to the rule of 
unlimited debate--an exception that we now refer to as reconciliation. 
It is time for the Senate to adopt a second exception to ensure the 
deliberate and timely consideration of all appropriation measures. All 
debate on each measure could be limited to no more than 16 hours--
except that each senator who chose to offer an amendment could do so 
even if the 16-hour time limit had been exceeded. Debate on a single 
amendment could be limited to one hour.
    If this kind of reform were enacted, then most senators would have 
more say in appropriation matters than they do presently. The Senate 
would be able to pass funding bills and get their bills to conference 
committee with the House in time to send final legislation to the 
president before the beginning of the fiscal year. And a more orderly 
and structured approach to appropriations would free the Senate to 
spend more time on other important legislation.
Conclusion
    We must be realistic about what we are capable of doing. We cannot 
see far enough over the horizon to effectively allocate resources three 
years in advance. We can and must restore a system of annual budgeting 
that will pose much less risk to the country than experimenting with a 
system that will almost certainly weaken a branch of this government 
that is too weak already.

    The Chairman. You know, you made an analogy to baseball. 
Lots of championship playoffs are no longer with stalemate. 
They have rules now to where there are no ties, so you can't 
tie the game. There are provisions for what you do when you get 
into trouble or are unable to make a decision. And I think this 
would be one of those where we would give the power back to the 
people that need it. And if the process would work well, we 
would understand what it is and do it every other year, once 
again for the success. Thank you very much, both of you, for 
your testimony.
    Mr. Dreier.
    Mr. Dreier. Thank you very much, Mr. Chairman. Thanks to 
both of you for being here. And thanks, Ms. MacGuineas, for 
your support of our effort here.
    And I would like to just engage Mr. Lilly, if I might, for 
a moment. First, I mean I disagree with a number of the 
arguments you made. First of all, no one on this panel, 
Democrat or Republican, has claimed that the States have been 
the perfect example. I don't know how you came to the 
conclusion that something is coming from this panel. I went 
through the fact there has been an exchange, a give-and-take on 
that. And some States have moved from annual to biennial, back 
to annual. Some have moved from biennial to annual, back to 
biennial.
    Mr. Lilly. My only point was that a lot more have moved 
from biennial to annual.
    Mr. Dreier. I understand that. I understand that. But the 
fact is, there has been this fluidity. And we did have an 
example of--if you look at large States like Texas and Ohio, I 
mean there are a number of large States, and I know there is 
this notion that it is only small States that have been 
involved in this, and that is not accurate.
    The other thing that I would say is I think that you are 
wrong in claiming that half of the House and Senate would like 
to reduce the size of government and half wouldn't. I find many 
Democrats join in the effort to try and bring about--Mr. Polis 
being an example--the size and scope and reach of government, 
and they want a greater degree of fiscal responsibility.
    While I acknowledge we have gridlock here, I mean I think 
that there are a number of things that have been done to 
address that. Much more needs to be done. As I look at the 
studies that have been done by the National Council of State 
Legislatures and then the study from the Center on Budget and 
Policy Priorities, and I go to their conclusion, the National 
Council of State Legislatures actually points to the fact that 
there may be enhanced oversight. And there is not a conclusion 
on this. And similarly, the other group here, the Center, talks 
about the idea of a pilot program.
    What reaction do you have to what I threw out here of maybe 
just taking and building on what Mr. Young had talked about? 
Because I mean, I think I have made it pretty clear I don't see 
this as a panacea. I don't believe that all of the budget 
challenges that we have, I don't believe that the problems that 
exist out there are all of a sudden going to be solved if we do 
move to a biennial process. But I do think, again, back to what 
I started with, the Einstein quote, we have been doing this 
since 1974. You have to acknowledge that the 1974 Budget 
Impoundment Act has not worked. And you know, you can point to 
the Senate. Listen, Kent Conrad is one who again was a virulent 
opponent, I mean to this notion, and he believes that this 
would go a long way towards doing it.
    I understand the power of the hold and the changes to the 
rules in the Senate that need to be addressed. But I do think 
that for us to explore this by taking some incremental steps, 
which is what I have thrown out on the table as an alternative 
to this, is something that would be worthy. What thoughts do 
you have of our trying to look at that?
    Mr. Lilly. Well, first of all, I think that the multiyear 
funding is actually more prevalent than even Mr. Young--I mean, 
I can't think of any time that we have funded an aircraft 
carrier that we didn't put the whole amount down. And that 
money is spent out over 5 years. If you go to the Public 
Buildings Office at the General Services Administration, one of 
the problems we have right now is this Congress cut back the 
leasing funds, and they have multiyear leases, so they are 
going to have to pay cancellations simply because of the 
changes. I don't think that is a good thing. I think that the 
Appropriations Committee ought to recognize that they are going 
to face those problems when they do that. It is not going to 
lessen when you have a multiyear or a single year.
    But an awful lot of procurement is multiyear, an awful lot 
of the contracting the government does is multiyear. It is 
pretty sensible most of the time, although I think you can find 
areas where it is not. One area that I think that this 
addresses that could be very important, is when we extend, when 
we fail to pass appropriations bills on time and we let it go 
into January, February, as we did then, when the money is 
finally apportioned by OMB, agencies have about 6 months to 
obligate that money. That is not enough time to go through the 
regular contracting process. It results in short-circuiting 
that. So no-bid contracts become more prevalent. It doesn't 
allow as good a review of grant applications as you should 
have. And so I think we should try to address that.
    My feeling is that the best way to address that is to put 
more pressure on the Congress to finish appropriations in time. 
The problem with going multiyear on the things that we don't 
already, is you tend to start getting into controversial issues 
when you do that.
    Mr. Dreier. Would there be particular areas that you think 
we might be able to explore it that are better than others?
    Mr. Lilly. Let me give you an example of an information 
problem we have and a problem with implementation. You take the 
Bureau of Prisons. Now, that ought to be something, we kind of 
know how many cases are in court, we know that the prison 
population is likely to grow. We have repeatedly appropriated 
less money than we needed there. Now, the reason is the Justice 
Department doesn't allow that information to be transmitted 
because they don't want to allocate that much money to the 
prisons. They want to keep it for initiatives that the Attorney 
General has. So we end up with undercutting.
    This has been verified both in GAO studies and the 
appropriations staff studies, that in fact Bureau of Prisons 
knew exactly what they wanted. Sure, we ought to just put them 
on pretty much automatic pilot and say this is something that 
we could go through down the years. But there is an awful lot 
of manipulation of the numbers there. And I think that 
manipulation is likely to continue, whether you have biennial 
budgets or annual budgets. We fail to anticipate their needs in 
an annual budget.
    Mr. Dreier. I just wondered if you might think about for 
us, as we look at possibly taking an incremental approach to 
this, if you might think about areas where we could address 
some of your valid concerns. I share your concern about 
economic prognostication and the economic conditions for the 
future.
    I mean, I do think that though some people say we will have 
more continuing resolutions if we proceed with the biennial 
process, but you know what, we have continuing resolutions now. 
If conditions, economic conditions do change and we need to 
have the ability to address it, the fact that we have done this 
in a biennial way does not undermine the ability to address 
those changing economic conditions in the future. So I think 
that, you know, I mean it makes it challenging, I will 
acknowledge, but I think that there are also tremendous 
benefits.
    Anyway, I would love to have, you know, any thoughts or 
recommendations that you might have, if you could take some 
time, and even, you know, with your think tank if you could 
explore steps because, again, it has been the opponents who 
have talked about the idea of maybe exploring this with an 
incremental approach, and if you could do that, I would very 
much appreciate it.
    Mr. Chairman, thank you very much for allowing me to ask 
these distinguished panelists questions, and thanks again for 
holding this hearing. I think it has been very helpful, and 
again I agree with your argument that we hope very much that we 
don't have to, you know, a dozen years from now be dealing with 
the same thing, and be able to take some kind of action on 
this. Thanks to Mr. Polis, too, for his very thoughtful 
exploration of this issue.
    The Chairman. Chairman Dreier, thank you for not only your 
leadership in this idea for the years that you have been in 
Congress, but also the time to apply the proper way to get it 
done now so that we can gain the--so the American people can 
have confidence in that which we do. Mr. Polis.
    Mr. Polis. I want to thank our panelists for being here.
    Just one quick question. We all have our kind of pet causes 
with regard to the budget, and one that I have long been 
interested in is why we have no capital budget at the Federal 
level, and that is a separate issue.
    Other than that, I am wondering if moving to biennial 
budgeting would, in fact, be a first step towards a capital 
budget insofar as it would allow capital projects to be 
expensed over 2 years under this proposal, rather than all in 
the year that they are made. If either of you know the answer. 
If not, we can find it elsewhere.
    Ms. MacGuineas. I guess I will respond more broadly to the 
capital budget, which has always been something that we have 
been drawn to, because obviously, I mean, one of the biggest 
challenges we have is how do we repurpose our budget so that we 
focus more on investment and away from consumption? And part of 
the budget process, if it were to reward those changes, it 
would make it much easier to do that, because right now you 
don't get credit for investing in things that have returns over 
time and promote growth. I think the risk has always been, of 
course, the political risk, which is that you start counting 
everything as investments, which just happens to be your 
favorite program. And we have seen this in so many ways, that 
something that is pro-growth in times when the economy is good 
suddenly becomes stimulus in times when the economy is bad. So 
I think that is the trade-off.
    I am not sure that the expensing would be altered in terms 
of biennial budgeting because that would have to do with the 
tax laws. But do you know? I think that is a tax law issue more 
than it is the budgeting window.
    Mr. Lilly. Yeah, I agree. I mean, I certainly think there 
has been a very destructive bias against investment in the 
Federal budget, and as entitlements grow and so forth, the 
appropriations process is squeezed down. That is one reason I 
think you hear so many complaints about the uncertainty of 
Federal budgeting, is that the small part of the budget which 
is discretionary spending, particularly domestic discretionary 
spending, absorbs all of the desires for cuts, and that really 
cuts into investments.
    The question with the capital budgeting is, which 
investments are you going to call investment? I mean, is 
highway construction more of an investment than NIH research? 
And, you know, I would like to see something that is fairly 
broad and deals with intellectual capital as well as physical 
capital. But I also think Maya is right, that it is very hard 
to define.
    Mr. Polis. I would submit that there are ways that this is 
done in the private sector, and no matter where we draw the 
lines and how we do it, it is likely to lead to a better 
accounting of investment than how we do it now, which 
effectively denies the possibility of investment and treats 
investments and capital expenses as expenses, and obviously 
there is a debate about, as you said, where to draw the line. 
But, again, most methods of accounting that the private sector 
uses in this regard would--are better than the current version 
currently used by the Federal Government.
    I will yield back to the gentleman, yield back the balance 
of my time.
    The Chairman. Thank you very much. I want to thank not only 
the gentleman, Mr. Polis, for stepping in very ably today to 
represent Mr. Hastings, him bringing to the table his thoughts 
and ideas, his time that he has given us today to make sure 
that this hearing before the Rules Committee is done in a way 
that would bring stature to the idea, the opportunity for us to 
push it forward.
    Obviously our panel today brought not only the expertise, 
but I think, brought some ideas about what we need to do to go 
mature the idea, what the intended impact would be. Don't 
answer the question, but the question came up in my mind: Does 
the Federal Government even follow tax law? If we had to live 
by--if the government had to live by the laws that everybody 
else did, I don't know the answer; whether the government 
follows accounting standards and practices that would be 
expected by those that they perhaps have within their--our 
owners. I brought up that question. So Maya, perhaps some day 
what I will do is I will ask you to come up here and we will 
explore that idea also.
    Ms. MacGuineas. Sure.
    The Chairman. I want to thank this entire panel for being 
here. Ms. MacGuineas, Mr. Lilly, your statements, we would like 
to take them, without objection, we will include those, not 
just your words, but whatever you brought, your statements.
    Mr. Lilly. I would ask to revise and extend. I found some 
typos that need to be stricken.
    The Chairman. I would allow the gentleman to do that. As 
has been noted earlier, we are going to hold the record open 
for 5 days, allowing other members to have that opportunity.
    I would also like to, without objection, bring in a 
statement from the Bipartisan Policy Center and also Citizens 
Against Government Waste, who have asked that their ideas be 
presented as part of the record today.
    [The statement of the Bipartisan Policy Center follows:]
    [The statement of Citizens Against Government Waste 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. On behalf of the committee and the 
subcommittee, I want to thank each of you for being here today. 
This subcommittee hearing is now adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]

</pre></body></html>
